                        OFFICE OF INSPECTOR GENERAL
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                          Incurred-Cost Audit of Grants Awarded to the
                           Indiana Commission for Community Service
                                        and Volunteerism




                                      Audit Report No. 03-03
                                       November 18,2002



                                      Financial Schedules and
                                   Independent Auditors' Report
                                           For the Period
                               October 1, 1997 to September 30,2001



                                             Prepared by:


                                    COTTON & COMPANY LLP
                                  333 North Fairfax Street, Suite 401
                                     Alexandria, Virginia 223 14




This report was issued to Corporation management on March 27, 2003. Under laws and regulations
governing audit follow-up, the Corporation must make final management decisions on report findings and
recommendations no later than September 29, 2003, and complete its corrective actions by March 27,
2004. Consequently, the reported findings do not necessarily represent the final resolution of issues
uresented.
                                                                                           CORPORATION
                                Office of Inspector General                                F O R NATIONAI.
                      Corporation for National and Community Service
                                    Audit Report 03-03

    Audit of Corporation for National and Community Service Grants Awarded to the
             Indiana Commission for Community Service and Volunteerism

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, as amended, awards grants and cooperative agreements to State
commissions, nonprofit entities, tribes and territories to assist in the creation of full- and part-
time national and community service programs. Currently, under the Act's requirements, the
Corporation awards approximately two-thirds of its AmeriCorps Staternational funds to State
commissions. The State commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

The Office of Inspector General (01G) retained Cotton and Company to audit Corporation grants
to the Indiana Commission for AmeriCorps, Learn and Serve, Program Development and
Training, Promise Fellows, Disability, Education, America Reads and Administrative costs from
October 1, 1997 through September 30, 2001. The audit's objectives were to determine whether:
(1) the Commission's financial reports presented fairly the financial results of the awards; (2) the
internal controls adequately safeguarded Federal funds; (3) the Commission and its subgrantees
had adequate procedures and controls to ensure compliance with Federal laws, applicable
regulations, and award conditions; (4) costs were documented and allowable under the awards'
terms and conditions; and (5) the Commission had established adequate financial and program
management oversight of its subrecipients.

The Commission had total claimed costs of $14,107,062, of which the auditors questioned
$330,400 for allowability and $689,726 for support, which is approximately seven (7) percent of
the total claimed costs. Costs questioned for allowability represent amounts for which
documentation shows that recorded costs were expended in violation of regulations, or specific
award conditions, or costs that require interpretation of allowability. Costs questioned for
support require additional documentation to substantiate that the cost was incurred and is
allowable. The auditors concluded that the Schedules of Award Costs present fairly the costs
claimed by the Commission, except for the questioned and unsupported costs identified in the
report, and the effects of any adjustments.

Effective in July 2000, responsibility for fiscal management and oversight of Federal funds
allocated to the Commission was assumed by the Indiana State Department of Workforce
Development. At this time, as noted throughout the audit report, extensive changes were made
to the monitoring processes. As a result, many of the questioned costs identified during the audit
occurred prior to the change in responsibility for oversight.



                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20525
OIG has reviewed the report and the work papers supporting the auditors' conclusions. We agree
with the findings and recommendations presented.

OIG provided the Commission and the Corporation a draft of this report for their review and
comment. Their responses are included in their entirety as Appendices A and B, respectively.
                      OFFICE OF INSPECTOR GENERAL
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              INCURRED COST AUDIT OF GRANTS AWARDED TO THE
       INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM

                                               Contents
Audit Scope

Summary of Results                                                                      2

Independent Auditors' Report                                                            5

Consolidated Schedule of Award Costs                                                    7

Exhibit A: Schedule of Award Costs for Award No. 94ASCINO15                             8
   Schedule A-1 : Schedule of Award Costs, Center for Youth as Resources                9
   Schedule A-2: Schedule of Award Costs, Community Centers of Indianapolis             1I
   Schedule A-3: Schedule of Award Costs, Marion County Family Advocacy Center          13
   Schedule A-4: Schedule of Award Costs, State Student Assistance Commission           15

Exhibit B: Schedule of Award Costs for Award No. 95LCSIN005                             17
   Schedule B-1 : Schedule of Award Costs, Indy Youth Ministry                          19
   Schedule B-2: Schedule of Award Costs, Sullivan County Soil and Water Conservation   20
                   District

Exhibit C: Schedule of Award Costs for Award No. 98LCSIN015
   Schedule C-1: Schedule of Award Costs, Center for Youth as Resources
   Schedule C-2: Schedule of Award Costs, Neutral Zone of Laporte
   Schedule C-3: Schedule of Award Costs, The Cello Cries On

Exhibit D: Schedule of Award Costs for Award No. 98ARCIN011                             25

Exhibit E: Schedule of Award Costs for Award No. OOASCINO15
   Schedule E-1: Schedule of Award Costs, Community Centers of Indianapolis

Exhibit F: Schedule of Award Costs for Award No. 00ASFIN015                             28
   Schedule F-1: Schedule of Award Costs, Marion County Family Advocacy Center          29
   Schedule F-2: Schedule of Award Costs, State Student Assistance Commission           30

Notes to Schedules of Award Costs, Summary of Significant Accounting Policies           31

Schedule of Questioned Costs by Subrecipient                                            32

Independent Auditors' Report on Compliance                                              33

Independent Auditors' Report on Internal Control                                        44

Appendix A: Commission's Response to Draft Audit Report

Appendix B: Corporation's Response to Draft Audit Report
                                             AUDIT SCOPE

         At your request, Cotton & Company LLP performed an incurred-cost audit of costs claimed by
the Indiana Commission for Community Service and Volunteerism (the Commission) and its
subrecipients for the period October 1, 1997 through September 30,2001. Effective in July 2000, the
Indiana State Department of Workforce Development (DWD) assumed responsibility for fiscal
management and oversight of Federal funds allocated to the Commission. Our audit covered financial
transactions, compliance, and internal control testing of the following program awards funded by the
Corporation for National and Community Service (the Corporation):



Program                                    Award No.               Award Period              Audit Period
AmeriCorps                                94ASCIN0 15            08/01/97-1213 1/00         10/01/97-12131/00
Administrative                            94SCSINO 15            12121193-12/31/00          10/01/97-12131/00
Program Development Assistance
 and Training                            95PDSIN0 15             01/01/95-12/31/01         10/01/97-09/30/01
Learn and Serve                          95LCSINOO5              10/01/95-12131/98         10/01/97-12131/98
State Disability Funds                   97DSCIN0 16             02/01/97-1213 1/99        10101/97-12131/99
Education Awards                         97EDSIN017              05/01/97-1213 1/99        10/01/97-12131/99
Learn and Serve                          98LCSrNO15              12/01/98-11/30/01         12101198-09/30/01
America Reads                            98ARCINOll              0810 1/98-12131/00        08/01/98-1213 1/00
Promise Fellows                          98APSINO15*             11/01/98-06/15/00         11/01/98-06/15/00
Promise Fellows                          99APSINO 15*            10/21/99-12/31/01         10121199-09/30/01
AmeriCorps                               OOASCINO15              0810 1100-07131/03        08/01/00-09/30/0 1
AmeriCorps                               OOASFINO 15             09/01/00-0813 1/03        09/01/00-09/30/01
Administrative                            OlSCSIN015             01/01/01-12/31/03         01/01/01-09/30/01

        *       This grant is a fixed-amount award for which the Commission is not required to submit
                Financial Status Reports (FSRs). Our audit scope was limited to testing Commission
                compliance with member eligibility and staffing requirements.


        Audit objectives were to determine if:

        0       The Commission's financial reports presented financial award results fairly.

                Internal controls were adequate to safeguard Federal funds.

                The Commission and its subrecipients had adequate procedures and controls to ensure
                compliance with Federal laws, applicable regulations, and award conditions.

                Award costs reported to the Corporation were documented and allowable in accordance
                with award terms and conditions.

                The Commission had established adequate financial and program management oversight
                of its subrecipients.
                                       SUMMARY OF RESULTS

Audit Report Summary

        Our audit report expresses a qualified opinion on the Consolidated Schedule of Award Costs
based upon questioned costs detailed below and the following limitations on the audit scope. At the
request of the Office of Inspector General (OIG), we did not expand the audit scope as a result of audit
findings, as required in accordance with auditing standards generally accepted in the United States of
America.

         Our report on compliance with laws, regulations, contracts, and grants applicable to the audit of
the Consolidated Schedule of Award Costs disclosed seven material instances of noncompliance required
to be reported under Government Auditing Standards. These findings are as follows: the Commission
advanced grant funds to subrecipients exceeding their immediate cash needs; the Commission claimed
costs that were either not allowable or for which no support for allowability was provided; financial and
progress reports were not submitted in a timely manner; subrecipients did not comply with program
requirements; subrecipients did not meet matching requirements; the Commission could not provide
evidence of program goal evaluation; and subrecipients did not monitor advances.

        Our report on internal control disclosed five reportable conditions, as follows: the Commission's
financial monitoring of subrecipients was not adequate; the Commission and its subrecipients did not
segregate financial grant management responsibilities; during the subgrant award process, the
Commission did not adequately evaluate subrecipient past performance; the Commission did not
document its review of member activities; and the Commission did not have procedures to verify member
hours reported. We considered the first reportable condition to be a material weakness.

         Our report on compliance and the material instances of noncompliance mentioned above appear
on pages 33 through 43, and our report on internal control and the reportable conditions mentioned above
appear on pages 44 through 48. Those findings of material instances of noncompliance and reportable
conditions should be read in detail for discussion of any corrective actions that have already been
implemented, including those recommended and put into action by DWD subsequent to their involvement
in July, 2000.

Costs Claimed

        The Commission claimed total costs of $14,107,062 for its Corporation grants from October 1,
1997 through September 30,2001. Of this amount, we questioned $330,400 for allowability and
questioned $689,726 for support, which is approximately seven (7) percent of total claimed costs. These
questioned amounts excluded questioned costs for education awards. Costs questioned for allowability
are costs for which documentation shows that recorded costs were expended in violation of laws,
regulations, or specific award conditions or costs that require interpretation of allowability by the
Corporation. Costs questioned for support require additional documentation to substantiate that the cost
was incurred and is allowable.
         Grant participants who successfully complete terms of service under the AmeriCorps and Promise
Fellow awards are eligible for education awards from the National Service Trust. These award amounts
are not funded by Corporation grants and are thus not included in claimed costs. As part of our audit,
however, we determined the effect of all member eligibility issues on these awards. Using the same
criteria described above, we questioned education awards of $103,791 for allowability and $64,999 for
support.

        We questioned costs and education awards for the following reasons:



                                                                                          Education
   Questioned for Allowability                                           Costs             Awards
   Funds Invested in Endowment Accounts                                $185,882
   Unallocable Expenditures                                               1,392
   Interest and Finance Costs                                               363
   Costs Exceeding Financial Status Report (FSR)                            545
   Stipends Claimed for Third-Term Member                                 7,791
   Member Did Not Complete Required Term of Service                                       $     1,028
   Subtotal                                                             $195,973          $     1,028

   Members Did Not Have Sufficient Hours*

   Total

        *       The Commission reimbursed the Corporation for these amounts in March 2000; however the
                Commission did not revise its FSR, accordingly these costs have been questioned.



                                                                                          Education
    Questioned for Support                                               Costs             Awards
    Missing Member Eligibility Documentation                            $ 63,498              $6 1,849
    Lack of Compelling Personal Circumstances                                                   3,150
    Missing Cost Documentation                                            86,495
    Unreconciled Differences                                             528,076
    Missing Member Timesheets                                             10,537
    Unsupported Allocated Costs                                            1,120

    Total                                                               3i5t&zZ               $64.999
       Details related to these costs and education awards appear in the Independent Auditors' Report.
Cost and education award exceptions are summarized by award as follows:



                                                                       Education
                                                                        Awards          Education
                                    Costs          Costs              Questioned         Awards
                   Costs        Questioned for Questioned for             for          Questioned
Grant No.         Claimed        Allowability    Support              Allowability     for Support    Exhibit




Exit Conference

        We held an exit conference with Commission representatives on November 18,2002. In
addition, we provided a draft copy of this report to the Commission and the Corporation for comment on
December 18,2002. Their responses, dated January 3 1,2003, and January 30,2003, respectively, are
included as appendices A and B to this report. The Commission provided specific comments on the
compliance and internal control report findings. The Corporation stated that it will respond to all findings
and recommendations when the audit report is issued, and it has reviewed the findings in detail.

Follow-up on Prior Audit Findings

        Our audit scope included a preaudit survey. To the extent that the survey identified internal
control weaknesses and compliance findings during our audit period, these are included in this report,
along with an assessment of the adequacy of the Commission's corrective actions, if any.
                                                  auditors o advisors
I ~ A V IL.
         D COTON, CI'A, CFE, CCFM    C H ~ K LH
                                              ES~ V A R<?A,
                                                         D , CFE, ClSA    *   ~,IIC~-II\FI.
                                                                                     W CILLFSPIE,CI'A, CFF * CATHERINE
                                                                                                                     L. NOCEKA,
                                                                                                                             CPA
            MATTHEW H. IUHNSON, CPA, CGFh.1 *  S A ~ HAI
                                                     I I IY, CPA, CGFbl       COILEITEY. WILSON,CPA o AILANRC)SI:NTI~AL,
                                                                                                                      CI'A




                                                      November 18,2002


   Inspector General
   Corporation for National and Community Service


                                        INDEPENDENT AUDITORS REPORT             1'




           We have audited costs claimed by the Indiana Commission for Community Service and
   Volunteerism (the Commission) for the awards listed below. These costs, as presented in the
   Consolidated Schedule of Award costs and the grant-specific Schedules of Award Costs (Exhibits A
   through F), are the responsibility of Commission management. Our responsibility is to express an
   opinion on the consolidated Schedule of Award Costs and Exhibits A through F based on our audit.

  Program                                           Award No.                        Award Period         Audit Period*
  AmeriCorps                                                                    08/01/97-12131/00       10101197-12131/00
  Administrative                                                                12121193-12131/00       10/0 1197-1213 1/00
  Program Development Assistance
   and Training (PDAT)
  Learn and Serve
  State Disability Funds
  Education Award
  Learn and Serve
  America Reads
  Promise Fellows
  Promise Fellows
  AmeriCorps
  AmeriCorps
  Administrative

             *        The end of our audit period is the earlier of either the grant expiration date or the date the
                      last Financial Status Report (FSR) was submitted by the Commission (either June 30, or
                      September 30, 2001).
             **       This grant is a fixed-amount award for which the Commission is not required to submit
                      FSRs. Our audit scope was limited to testing compliance with member eligibility and
                      staffing requirements.
        Except as described below, we conducted our audit in accordance with audit standards generally
accepted in the United States of America and Government Auditing Standarcis issued by the Comptroller
General of the United States. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial schedules are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting amounts and disclosures in the financial
schedules. An audit also includes assessing accounting principles used and significant estimates made by
management, as well as evaluating overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion on costs claimed.

        The scope of our audit procedures was based on the audit-planning memorandum submitted to
and approved by the Office of Inspector General (OIG). At the request of the OIG, we have not projected
questioned costs to the remainder of the population beyond the samples selected, and we have not
expanded items tested based upon results of our procedures, as required by auditing standards generally
accepted in the United States of America. Accordingly, we are not able to determine the effect on the
Consolidated Schedule of Award Costs, if any, had additional procedures been performed.

        The Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs are
intended to present allowable costs incurred under the awards in accordance with Office of Management
and Budget (OMB) Circular A-87, other applicable OMB circulars, and award terms and conditions.
Therefore, these are not intended to be complete presentations of the Commission's revenues and
expenses.

          The Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
identify certain questioned education awards. These awards are not funded by Corporation grants and are
thus not included in claimed costs. As part of our audit, however, we determined the effect of all member
eligibility issues on these awards.

         In our opinion, except for questioned costs in the Consolidated Schedule of Award Costs and
except for the effects of such adjustments, if any, that might have been determined to be necessary had we
been able to expand our testing related to the audit scope limitation discussed above, the financial
schedules referred to above present fairly, in all material respects, costs claimed by the Commission for
the period October 1, 1997 to September 30, 2001, in conformity with OMB Circular A-87, other
applicable OMB circulars, and award terms and conditions.

        In accordance with Government Auditing Standards, we have also issued reports dated November
18, 2002, on our consideration of the Commission's internal control and on its compliance with laws and
regulations. These reports are an integral part of an audit performed in accordance with Govern~nqt
Auditing Standards and should be read in conjunction with this report in considering audit results.

        This report is intended solely for the information and use of the OIG, Corporation management,
the Commission, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.


                                                 COTTON & COMPANY LLP



                                                 Alan Rosenthal, CPA
                                                 Partner
              INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                        CONSOLIDATED SCHEDULE OF AWARD COSTS
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS



                                                                              Education Education
                                                                     Costs     Awards     Awards
                                                        Costs      Questioned Questioned Questioned
                               Approved   Claimed   Questioned for    for        for        for
Award No.       Program         Budget     Costs     Allowability   Support Allowability Support Exhibit
            AmeriCoips
            Administrative
            PDAT
            Learn and
             Serve
            State Disability
              Funds
            Education
             Award
            Learn and
             Serve
            America Reads
            AmeriCorps
            AmeriCorps
            Administrative
                                                                                               EXHIBIT A

          INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                           SCHEDULE OF AWARD COSTS
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  AMERICORPS
                              AWARD NO. 94ASCIN015
                       OCTOBER 1,1997 TO DECEMBER 31,2000

                                            Claimed      Questioned for Questioned              Reference1
                                             Costs        Allowability for Support                Note
Center for Youth as Resources                                                   $ 72,527       Schedule A-1
City of Elkhart
Community Centers of Indianapolis                            $      707          396,301       Schedule A-2
Family Services
Fort Wayne Schools
Gleaners Food Bank
Indiana Department of Environmental
  Management
Indiana University, Campus Compact
Lake County Public Library
Life Treatment Center
Marion County Family Advocacy                                                        10,784    Schedule A-3
Martin University
Middle Way House
Mount Vernon Schools
Peace Learning Center
State Student Assistance Commission                              134,427             12,993    Schedule A-4
Tree of Life
Timing Difference

Total                                                        $135.492           $492.605

Approved Budget

Education Awards                                             $102.763          $4&999            Note 1

  1.      We questioned education awards as described in Schedules A-1 through A-4, as follows:


                                               Questioned for        Questioned for
 --                                             Allowability           Support                Schedule
  Center for Youth as Resources                                            $14,965              A-1
  Community Centers of Indianapolis                                         16,117              A-2
  Marion County Family Advocacy Center                                      19,742              A-3
  State Student Assistance Commission            $102,763                   14,175              A-4

  Total                                          $102.763                  $64.999
                                                                                         SCHEDULE A-1


      INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                       SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          AWARD NO. 94ASCIN015
                   OCTOBER 1,1997 TO DECEMBER 31,2000



 Center for Youth as Resources (CYAR)                                                             Note
 Approved Budget (Federal Funds)                                                   $667.108

 Claimed Costs                                                                     $605.574

 Questioned for Support
   Missing Eligibility Documentation                                    $16,965
   Missing Documentation for Payroll, Member Stipends,
     and Advances                                                        55,562

 Total Questioned for Support

 Questioned for Support Education Awards
   Missing Eligibility Documentation                                     $9,452
   Lack of Compelling Personal Circumstances                              5,513

 Total Questioned for Support                                                       $14.965



1.     We tested 21 CYAR member files for eligibility. Files did not contain sufficient documentation to
       support the eligibility for 5 of the 21. We were unable to ascertain from these files either that the
       member was a U S . citizen at least 17 years of age, or that the member received a high school
       diploma (or its equivalent). We were thus unable to verify that the five members were eligible in
       accordance with 45 Code of Federal Regulations (CFR) Section 2522.200. We questioned for
       support $16,965 of stipends paid to these members and $9,452 of education awards, as follows:



                 Program        Number of                                         Education
                   Year         Members           Reason           Stipends        Awards
                 1997-1998           2*         Citizenship        $ 6,786          $4,726
                 1998-1999           1          Citizenship             3,393        2,363
                 1998-1999           2           Diploma                6,786        2,363

               Total

                 *      Files were also missing high school diplomas.
2.   CYAR was unable to provide supporting documentation, such as timesheets, personnel listings,
     or vendor invoices, for $28,388 of staff salaries and member stipends charged to the grant.
     CYAR also did not have expenditure reports or FSRs to support $27,174 advances to host sites.
     We questioned for support $55,562 in accordance with OMB Circular A-122, Attachment A,
     paragraph A.2, Factors Affecting Allowability of Costs. Unsupported costs are as follows:


                     Date             Description                 Amount
                     12131/97         Salaries and Benefits
                     04/27/98         Salaries and Benefits
                     11118/98         Subrecipient Advance
                     02112/98         Subrecipient Advance
                     04/27/98         Subrecipient Advance
                     11/18/97         Subrecipient Advance
                     02112/98         Subrecipient Advance
                     11118/97         Subrecipient Advance
                     01/14/99         Subrecipient Advance
                     02/09/99         Subrecipient Advance
                     08/13/99         Subrecipient Advance
                     0611O/99         Subrecipient Advance
                     12118/98         Subrecipient Advance
                     12/14/99         Subrecipient Advance
                     12114/99         Subrecipient Advance
                     0311 1/99        Member Stipends
                     06115/99         Member Stipends
                     08/13/99         Member Stipends
                     98/99            Member Stipends
                     02/07/00         Salaries and Benefits
                     04118/00         Salaries and Benefits
                     03/12/00         Member Stipends
                     03115/00         Member Stipends
                     06/30/00         Member Stipends

                     Total



3.   CYAR allowed three members to earn partial education awards totaling $5,513, but did not
     document the "compelling personal circumstances" needed to merit the awards. Circumstances
     under which a member may leave the program early and earn an award are detailed in 45 CFR
     Section 2422.230; this provision also requires the program to document these circumstances. We
     were unable to verify that these members were eligible to earn partial education awards. We
     questioned $5,5 13 for lack of support.
                                                                                     SCHEDULE A-2


    INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                     SCHEDULE OF AWARD COSTS
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        AWARD NO. 94ASCIN015
                 OCTOBER 1,1997 TO DECEMBER 31,2000


Community Centers of Indianapolis (CCI)                                                      Notes
Approved Budget (Federal Funds)                                             $1.367.821

Claimed Costs

Questioned for Allowability, Unallocable Expenditures                              $242        1

Questioned for Support
  Missing Eligibility Documentation
  Missing Cost Documentation
  Unreconciled Differences

Total Questioned for Support                                                  $396.301

Questioned for Support Education Awards
  Missing Eligibility Documentation



    CCI claimed $652 in Program Year (PY) 1999-2000 for security and network systems. CCI split
    these costs among funding sources without assessing the allocability of these costs to each. In
    addition, CCI claimed $55 for credit card membership fees in PY 1998 for a membership that was
    subsequently canceled. OMB Circular A-122, Attachment A, paragraph A.4, states that costs are
    allocable in accordance with the relative benefits received. We questioned $707 ($652 + $55).

     We tested 21 CCI PY 1997-2000 member files for eligibility. Files did not contain sufficient
     documentation to support the eligibility for 8 of the 21. We were unable to ascertain from these
     files that the members received high school diplomas (or its equivalent). In addition, all of these
     files were missing the member's birth certificate. We were thus unable to verify that the eight
     members were eligible in accordance with 45 CFR Section 2522.200. We questioned for support
     $30,946 of stipends paid to these members and $1 6,117 of education awards.

     CCI was unable to provide supporting documentation, such as vendor invoices or timesheets, for
     $26,634 of costs charged to the grant. Payroll and staff charges were based on budget estimates
     and not actual hours worked. We questioned for support $26,634 in accordance with OMB
     Circular A-122, Attachment A, paragraph A.2. and Attachment B, paragraph 7.m. Unsupported
     costs are as follows:
                   Date            Description                              Amount
                   10117197        Payroll                                  $ 3,120
                   03120198        Life Insurance                                  4
                   06110198        Food and Beverages                           2 16
                   06110198        General Program Support                      456
                   06/22/98        Admission Fees                               228
                   10102198        Payroll                                      83 1
                   1213 1/98       Payroll                                      747
                   11/30/98        Coding Error                               5,612
                   12/07/98        Health Insurance                           2,079
                   06130199        Administrative Charge                     11,225
                   0410 1/99       Payroll                                      83 1
                   0313 1/99       State Unemployment                           153
                   07/09/99        Clerical                                     520
                   04/12/00        Staff Wages                                  588
                   04/26/00        Staff Benefits                                24

                   Total


4.   CCI could not reconcile its accounting system to costs claimed on its FSRs for PY 1997-2000.
     We noted a $484,600 difference between costs claimed on its FSRs and its accounting detail
     totals. We questioned the Federal share of $338,721 for support in accordance with OMB
     Circular A-122, Attachment A, paragraph A.2. as follows:


                            Program
                              Year          Difference       Federal Share*
                            1997-1998         $191,519          $138,099
                            1998-1999          230,713           159,218
                            1999-2000           62.368            4 1,404


                                                                       -      -


      *       Federal share is based on Federal percentage of reported costs per FSRs for this period.
                                                                                        SCHEDULE A-3

         INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 94ASCIN015
                      OCTOBER 1,1997 TO DECEMBER 31,2000



     Marion County Family Advocacy Center (FAC)                                                 Notes
     Approved Budget (Federal Funds)                                                 $803.414

     Claimed Costs                                                                   $736.236

     Questioned for Allowability, InterestJFinance Costs                                $363      1

     Questioned for Support
       Missing Member Timesheets
       Missing Direct Cost Documentation

     Total Questioned for Support                                                     $10.784

     Questioned for Support Education Awards
       Missing Member Timesheets
       Missing Eligibility Records

     Total Questioned for Support                                                     $19:742


1.        FAC claimed interest expense of $323 in PY 1997-1998 and unallocable fees of $40 in April
          1999. These costs are unallowable in accordance with OMB Circular A-122, Attachment B,
          paragraph 23. We questioned $363 for allowability.

2.        FAC did not retain member timesheets for three members in PY 1997-2000, as required by 45
          CFR Section 2543.53. We were thus unable to verify that these members were eligible for the
          stipends and education awards they earned. We questioned $10,537 of stipends claimed and
          $3,201 of education awards paid to these members as unsupported.

3.        FAC was unable to provide supporting documentation, such as vendor invoices or receipts, for
          $247 of costs charged to the grant. We questioned $247 in accordance with OMB Circular A-
          122, Attachment A, paragraph A.2. Unsupported costs are as follows:
                          --   -




                         Date             Description                    Amount
                         0111 1/99        Postage                          $    75
                         08/20/99         Liability Insurance                  132
                         1999-2000        Parking Fee                      40
                         Total
4.   FAC could not provide enrollment or exit forms for seven members in PY 1997-1999, as required
     by AmeriCorps Special Provisions, Member Records and Confidentiality. We were thus unable
     to verify that these members successfully completed their program terms. We questioned
     education awards of $16,541 as unsupported.
                                                                                      SCHEDULE A-4


         INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 94ASCIN015
                      OCTOBER 1,1997 TO DECEMBER 31,2000

 --

     State Student Assistance Commission (SSAC)                                             Notes
     Approved Budget (Federal Funds)                                         $1.744:742

     Claimed Costs                                                           $1 J22.953

     Questioned for Allowability
       Stipends Paid to Members with Insufficient Hours

     Questioned for Support
       Missing Direct Cost Documentation
       Missing Eligibility Documentation

     Total Questioned for Support                                               $12.993

     Questioned for Allowability Education Awards
       Awards to Members with Insufficient Hours

     Questioned for Support Education Awards
       Missing Eligibility Documentation




         Ivy Tech State College was an SSAC subrecipient under this award. The Indiana State Board of
         Accounts performed an audit of Ivy Tech's 2 1ST Century AmeriCorps program from July 1, 1997
         to June 30,1999, and questioned $134,427 of stipends and $102,763 of education awards to
         members for whom timesheets did not document the program hours required. Pursuant to a
         March 13,2000, agreement with the Corporation, the Commission reimbursed these amounts to
         the Corporation. Because SSAC did not revise its FSRs to eliminate the reimbursed amounts,
         however, we questioned stipends of $134,427 and education awards of $102,763 for allowability.

2.       SSAC was unable to provide supporting documentation for two member stipends totaling $175
         paid in PY 1997-1999. We questioned for support $175 in accordance with OMB Circular A-87,
         Attachment A, Section C.l, Factors Affecting Allowability of Costs.
3.   We tested 21 SSAC member files for eligibility. Files did not contain sufficient documentation to
     support the eligibility for 4 of the 2 1. SSAC could not provide high school diplomas or proof of
     citizenship for these members. We were thus unable to verify that the members were eligible in
     accordance with 45 CFR Section 2522.200. We questioned for support $12,818 of stipends paid
     to these members and $14,175 of education awards, as follows:



                            Number of                                            Education
         Program Year       Members                Reason             Stipends    Awards
          1997-1998               1        High School Diploma $ 5,544            $ 4,725
          1998-1999               3*       High School Diploma   7,274              9.450

         Total

     *       These member files were also missing proof of citizenship.
                                                                                   EXHIBIT B


           INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                            SCHEDULE OF AWARD COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                LEARN AND SERVE
                               AWARD NO. 95LCSIN005
                        OCTOBER 1,1997 TO DECEMBER 31,2000



                                                       Claimed   Questioned
                                                        Costs    for Support     Referencemote
American Cabaret Theater
Area Youth Ministry Inc.                                                             Note 1
Boys & Girls Club of Northwest Indiana
Clark County Youth Shelter                                                           Note 1
Community Partnership with Youth
Crawford County 4-H
Future Choices
Gateway Woods
Greater Lafayette Volunteer Bureau
Indiana Department of Education
Indianapolis Urban League
Indy Youth Ministry                                                            Note 1, Schedule B-1
LaPorte County Leadership
Leadership of Fort Wayne
Commission, Other Costs
Minority Health Coalition
Muncie Family YMCA                                                                   Note 1
New Albany Deanery Catholic Youth Ministry
North View High School
North Central Community Action Agency
Putnam County Youth Development Commission
Shoals Junior/Senior High School
Sullivan County Soil and Water Conservation District                              Schedule B-2
Terre Haute Track Club
Tri County Health Coalition                                                          Note 1
Womack Memorial Colored Methodist Episcopalian
  (CME) Church                                                                       Note 1
Youth as Resources of southwestern Indiana
Family & Youth Service Bureau of Porter County
Timing Difference                                                                    Note 1

Total

Approved Budget
1.   The Commission gave its subrecipients advance payments, but included on its FSR only those
     amounts reported by the subrecipients, resulting in a $(62,35 1) difference between funds
     advanced and amounts reported as of June 30,2001. Several of the subrecipients reported total
     expenses on their FSRs that were less than amounts advanced. The Commission is recovering
     these amounts from the subrecipients, as follows:

                     Area Youth Ministry Inc.
                     Clark County Youth Shelter
                     Indy Youth Ministry
                     Muncie Family YMCA
                     Tri County Health Coalition
                     Womack Memorial CME Church

                     Total                                                     l!2L2~s
     We questioned these costs by subrecipient, but offset these amounts by the net timing difference,
     because the Commission did not claim these costs on its FSR.
                                                                                    SCHEDULE B-1


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 95LCSIN005
                  OCTOBER 1,1997 TO DECEMBER 31,2000



         Indy Youth Ministry (IYM)                                                Notes
         Approved Budget (Federal Funds)                                $3.800

         Claimed Costs                                                  $1.800       1

         Questioned for Support, Unsupported Allocability               $1.120       2



1.   IYM received an advance of $4,760, but reported expenditures of only $1,800 on this grant. This
     $4,760 advance exceeded the subgrant ceiling by $960. The agreement was never amended to
     increase the ceiling, as required by paragraph V.C.ll. of the subgrant. We questioned the $2,960
     advance exceeding the FSR (including $960 paid in excess of the subgrant ceiling) for support in
     Note 1 to Exhibit B.

2.   IYM provided receipts to support costs claimed on its FSR. We noted, however, that receipts
     provided supported $1,120 for bulk fruit and vegetable purchases. IYM did not explain how
     these expenditures related to the grant project (taking gift packs to and performing a singing
     presentation for orphans at a group home). We were thus unable to verify that these expenses
     were allowable in accordance with subgrant paragraph B.3, which states that funds are not to be
     expended for other than the stated purpose in the grant application. We questioned $1,120 for
     support.
                                                                                    SCHEDULE B-2


        INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                         SCHEDULE OF AWARD COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            AWARD NO. 95LCSIN005
                     OCTOBER 1,1997 TO DECEMBER 31,2000


     Sullivan County Soil and Water Conservation District
     (SCSWCD)                                                                             Notes
     Approved Budget (Federal Funds)                                            $sSM

     Claimed Costs

     Questioned for Support
       Missing Cost Documentation
       Unreconciled Difference

     Total Questioned for Support                                                 2Ll


1.      SCSWCD gave a service learning site a $1,814 advance, but could only provide receipts for
        $1,752 and could not explain the $62 difference between the advance and total receipts. In
        addition, SCSWCD could not provide supporting documentation for $300 in administrative fees
        paid to its extension educator. We questioned $362 for support in accordance with OMB Circular
        A-87, Attachment A, Section C. 1.

2.      SCSWCD claimed total expenditures of $8,000 on its final FSR dated June 14, 1998. Its
        accounting records, however, support only $7,391 expended on this subgrant. SCSWCD could
        not explain the $609 difference. We questioned $609 for support.
                                                                                    EXHIBIT C


         INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              LEARN AND SERVE
                             AWARD NO. 98LCSIN015
                        DECEMBER 1,1998 TO JUNE 30,2001



                                                       Questioned
                                        Claimed            for        Questioned
                                         Costs         Allowability   for Support     Reference
Bishop Dwenger Habitat for Humanity     $     2,500
Boone Grove High School                       4,500
Center for Youth as Resources               185,882      $185,882                    Schedule C-1
Clifford Pierce Middle School                 1,100
Community Youth Leadership Council            3,000
Crawford County 4-H                           8,600
Crisis Center                                 2,188
Commission, Other Costs                      45,720
Jennings County Schools                         497
Johnson County Youth Services                   238
Kappa Alpha Public Library                      750
Lake County Public Library                      643
Laporte County Leadership                       750
Lebanon Community Schools                       750
Lincoln Hills Development Corporation         2,000
Minority Health Coalition                     1,324
Muncie Family YMCA                            1,500
Neutral Zone of Laporte                       2,365                      $2,365      Schedule C-2
New Albany Deanery                            3,000
New Albany High School                          544
Shoals High School Special Education          1,210
South IN CentersfWilson Education             5,600
The Cello Cries On                            2,000           545                    Schedule C-3
The Counseling Center                         4,413
Youth Services Bureau of Porter               2,o 10
YWCA Family Intervention                      2,000

Total Costs

Approved Budget
                                                                                  SCHEDULE C-1


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 98LCSIN015
                    DECEMBER 1,1998 TO JUNE 30,2001


     Center for Youth as Resources (CYAR)                                             Note
     Approved Budget (Federal Funds)                                   $2 11SO0

     Claimed Costs                                                     $185.882

     Questioned for Allowability - Payments to Endowment Funds         $185.882         1



1.   CYAR acts as a pass-through agency and advanced the Learn & Serve grant funds to its
     subrecipients (host sites). CYAR claimed these advances as grant expenditures on its FSRs.
     According to a June 2002 Commission monitoring report, the host sites placed both grant funds
     and matching funds in endowment accounts. The interest from these endowment accounts was
     used for operating funds, and the principal was not used. Because the costs claimed were not
     used for grant purposes, we questioned $185,882 for allowability in accordance with OMB
     Circular A-122, Attachment A, paragraph A.2.
                                                                                 SCHEDULE C-2


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 98LCSIN015
                    DECEMBER 1,1998 TO JUNE 30,2001



     Neutral Zone of Laporte (NZL)                                                Note
     Approved Budget (Federal Funds)                                $2.365

     Claimed Costs

     Questioned for Support, Missing Cost Documentation             $2.365           1



1.   NZL could not provide documentation, such as timesheets, vendor invoices, or receipts, to
     support $4,730 ($2,365 Federal and $2,365 matching) claimed on this grant. We were unable to
     determine the allowability of these costs in accordance with OMB Circular A-122, Attachment A,
     paragraph A.2. We questioned $2,365 for support.
                                                                                 SCHEDULE C-3


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 98LCSIN015
                    DECEMBER 1,1998 TO JUNE 30,2001


       The Cello Cries On                                                        Note
       Approved Budget (Federal Funds)                               $2.000

       Claimed Costs                                                 $2.000

       Questioned for Allowability, Costs Exceeding FSR                $545        1


1.   The Commission advanced this subrecipient the entire $2,000 subgrant amount and claimed this
     amount for Federal reimbursement. The final FSR for The Cello Cries On, however, reported
     expenditures of only $1,455. The Cello Cries On refunded the $545 to the Commission in May,
     2002. Because the Commission did not reduce costs claimed on its own FSR, however, we
     questioned the $545 difference between costs claimed and costs incurred on this subgrant in
     accordance with OMB Circular A-122, Attachment A, paragraph A.2.
                                                                                      EXHIBIT D


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                           AMERICA READS
                         AWARD NO. 98ARCINOll
                  AUGUST 1,1998 TO DECEMBER 31,2000



                                              Claimed      Questioned for
                                               Costs        Allowability      Reference
       Indiana University, Reading Corps     $ 528,180
       Valparaiso Community Schools
         (vcs)                                  534.05 1

       Total Costs                           $1,062,23 1

       Education Award                                           $1.028        Note 1

       Approved Budget




1.   VCS approved a partial education award for a PY 1998-1999 member who left for personal
     compelling reasons. This member's timesheets, however, support only 149 service hours-less
     than 15 percent of the 1,700-hour full-time requirement. According to 45 CFR Section 2522.230,
     a member must complete at least 15 percent of the originally approved term of service to be
     eligible for a pro-rated education award. We questioned the $1,028 education award for
     allowability.
        INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                         SCHEDULE OF AWARD COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                AMERICORPS
                            AWARD NO. 00ASCIN015
                    SEPTEMBER 1,2000 TO SEPTEMBER 30,2001



                                     Claimed     Questioned for   Questioned
                                      Costs       Allowability    for Support    Reference
City of Elkhart                     $ 146,404
Community Centers of Indianapolis     540,144        $685           $189,896    Schedule E-1
Indiana University, Campus Compac     349,659
Indiana University, Mentor Corps      175,051
Mount Vernon Schools                   82,952
Peace Learning Center                 555,713

Total                               $1-849.923       $685          $189.896

Approved Budget                     $2,196,759
                                                                                          SCHEDULE E-1


         INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                             AWARD NO. 00ASCIN015
                     SEPTEMBER 1,2000 TO SEPTEMBER 30,2001



     Community Centers of Indianapolis (CCI)                                                   Notes
     Approved Budget (Federal Funds)                                               $577.107

     Claimed Costs                                                                 $540.144

     Questioned for Allowability, Unallocable Expenditures                             $685       1

     Questioned for Support
       Missing Cost Documentation
       Unreconciled Amounts

     Total Questioned for Support                                                  $1 89.896


1.        CCI claimed $685 in PY 2000-2001 for security and network systems. CCI split these costs
          among funding sources without assessing the allocability of these costs to each. OMB Circular
          A-122, Attachment A, paragraph A.4., states that costs are allocable in accordance with the
          relative benefits received. We questioned $685.

2.        CCI was unable to provide supporting documentation, such as vendor invoices or timesheets, for
          $1,150 of costs charged to the grant. We questioned for support $1,150 in accordance with OMB
          Circular A-122, Attachment A, paragraph A.2. Unsupported costs are as follows:

                           Date               Description               Amount
                           03/30/0 1          Payroll                     $ 831
                           12131101           Allocation 0530                319

                           Total



3.        CCI could not reconcile its accounting system to costs claimed on its FSRs for PY 2000-2001.
          We noted a $309,420 difference between $885,659 claimed on its FSRs and costs of $576,239 per
          its accounting detail. We questioned for support the $188,746 Federal share of unreconciled costs
          (based on the percentage of Federal costs claimed to total costs) in accordance with OMB
          Circular A-122, Attachment A, paragraph A.2.
                                                                                     EXHIBIT F


        INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                         SCHEDULE OF AWARD COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                AMERICORPS
                            AWARD NO. 00ASFIN015
                         SEPTEMBER 1,2000 TO SEPTEMBER 30,2001



                                          Claimed     Questioned for   Questioned
                                           Costs       Allowabilitv    for S u ~ ~ o r tReference
Evansville Respect                       $ 175,998
Family Services                             81,589
Horizon House                               79,188
Holy Cross Associates                      283,955
Legal Services Organization of Indiana     150,160
Valparaiso Community Schools               21 1,581
.Marion County Family Advocacy Center      163,307       $7,791                      Schedule F-1
State Student Assistance Commission        250.403                       $2,769      Schedule F-2

Total                                    $1.396.181      $7.791          $2.769

Approved Budget                          $1.894.548
                                                                                SCHEDULE F-1


INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                 SCHEDULE OF AWARD COSTS
      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                    AWARD NO. 00ASFIN015
            SEPTEMBER 1,2000 TO SEPTEMBER 31,2001



Marion County Family Advocacy Center (FAC)                                       Note
Approved Budget (Federal Funds)                                     $2 17.877

Claimed Costs                                                       $163.307

Questioned for Allowability, Stipend to Third-Term Member             $     1


FAC claimed stipends of $7,791 for a third-term AmeriCorps member. According to 45 CFR
Section 2522.200, AmeriCorps participants may only receive benefits for the first two
successfully completed terms of service. The member served in PY 1995-1996 as a full-time
member and in PY 1997-1998 as a part-time member. She did not, however, count her second
term when she enrolled for the PY 2000-2001 service term, and FAC did not notice this until her
third term of service was completed. We questioned $7,791 for allowability.
                                                                                  SCHEDULE F-2


     INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 00ASFIN015
                 SEPTEMBER 1,2000 TO SEPTEMBER 30,2001


     State Student Assistance Commission (SSAC)                                     Notes
     Approved Budget (Federal Funds)                                  $406.776

     Claimed Costs                                                    $250.403

     Questioned for Support, Missing Eligibility Documentation                         1



1.   We tested seven SSAC member files for eligibility. One file did not contain proof of the
     member's citizenship. We were thus unable to verify that the member was eligible in accordance
     with 45 CFR Section 2522.200. We questioned for support $2,769 of stipends claimed for this
     member.
        INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                    NOTES TO SCHEDULES OF AWARD COSTS
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                     SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Accounting

        The accompanying schedules have been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the schedules
has been prepared from reports submitted by the Commission to the Corporation and the accounting
records of the Commission and its subgrantees. The basis of accounting used in preparation of these
reports differs from accounting principles generally accepted in the Unites States of America as follows:

Equipment

         Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expense reflected in the
Schedules of Award Costs includes the cost of equipment purchased during the period rather than a
provision for depreciation. The Commission owns equipment acquired while used in the program for
which it was purchased or in other fbture authorized programs. The Corporation has, however,
reversionary interest in the equipment. Its disposition, as well as ownership of any proceeds therefore, is
subject to Federal regulations.

Inventory

        Minor materials and supplies are charged to expense during the period of purchase.
                      INDIANA COMMISSION FOR COMMUNITY SERVICE AND VOLUNTEERISM
                              SCHEDULE OF QUESTIONED COSTS BY SUBRECIPIENT
                            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                              ALL AWARDS
                                   OCTOBER 1,1997 TO SEPTEMBER 30,2001



                                                                                             Indy Youth   Neutral    Cello
                                      CYAR        cs!---FAC               SSAC      SCSWCD    Ministry     Zone     Cries On     Total
Questioned Costs for Allowability
Funds Invested in Endowment Accounts $1 85,882                                                                                 $1 85,882
Unallocable Expenditures                           $1,392                                                                          1,392
Interest and Finance Costs                                      $ 363                                                                363
Costs Exceeding FSR                                                                                                  $545            545
Members with Insufficient Hours                                          $134,427                                               134,427
Stipend for Third-Term Member                      -            7.791                                                -             7.79 1

Total                                S185.882      $1.392$8.154$134.427                                                        $330.400



Questioned Costs for Support
Missing Eligibility Documentation     $16,965    $ 30,946                 $15,587                                              $ 63,498
Missing Cost Documentation             55,562      27,784   $     247         175    $362                  $2,365                86,495
Unreconciled Differences                          527,467                             609                                       528,076
Missing Member Timesheets                                       10,537                                                           10,537
Unsupported Allocated Costs            -         -          -            -           -          $1.120     -                      1,120

Total                                 $72.527$586.15)7$10.784$15.7(,2                $421       L!&x!      S2.365              $689.726
                                                  auditors * advisors
DAVIDL. COTTON,CPA, CFE, CCFM a CHAIWSH ~ V A R CPA,
                                                   D , CFE, ClSA         *                                           I.. NOCIRA, CPA
                                                                   M l c l i a r ~W. CILLESPII:,CPA, CFE a CI~TI~EKINI-
         MATTHEWH . JOHNSON,                   I IEY, CPA, CCFh.1 + COI mi Y. WILSON,CPA a AI AN ROSENTHAL,
                            CPA, CCBFh4 a S A ~HAI                                                                      CI?A



                                                      November 18,2002


    Inspector General
    Corporation for National and Community Service


                           INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

            We have audited costs claimed by the Indiana Commission for Community Service and
    Volunteerism (the Commission) to the Corporation for National and Community Service (the
    Corporation) for the following awards and have issued our report thereon dated November 18,2002,
    which report was qualified for the matters discussed therein:


   Program                                           Award No.                 Award Period                Audit Period*
   AmeriCorps
   Administrative
   Program Development Assistance
    and Training                                   95PDSIN015
   Learn and Serve                                 95LCSINOO5
   State Disability Funds                          97DSCIN016
   Education Awards                                97EDSIN017
   Learn and Serve                                 98LCSINO15
   America Reads                                   98ARCINO11
   Promise Fellows                                 98APSINOl5
   Promise Fellows                                 99APSINO 15
   AmeriCorps                                      00ASCIN015
   AmeriCorps                                      OOASFINO15
   Administrative                                  0 1SCSINO 15



             Except as discussed in the third paragraph in our Independent Auditors' Report, we conducted
    our audit in accordance with auditing standards generally accepted in the United States of America and
    Government Auditing Starzdards issued by the Comptroller General of the United States. Compliance
    with applicable laws and regulations related to the awards is the responsibility of Commission
    management. As part of obtaining reasonable assurance that costs are free of material misstatements, we
    performed tests of compliance with certain provisions of laws and regulations related to the awards,
    noncompliance with which could have a direct and material effect on the determination of amounts
    claimed in the Schedule of Award Costs. Our objective was not, however, to provide an opinion on
    overall compliance with such provisions. Accordingly, we do not express such an opinion.



                                                           established 1981

                                                      STRCET* SLIITE
                                  3 3 3 N(II<TH FAIRFAX               401 + ALEXANIXIA, VIIKINIA 22314
                         7031836-6701 4 FAX 7031836-0941 * \Y'\Y~\V.COTTONCl1A.CO~\1* L)COTTON@'COTT(~NCIJA
                                                                                                       COhl
                                                                 33
      The results of our tests of compliance disclosed the following instances of material
noncompliance that are required to be reported herein under Governnlent Auditing Stancicvds.

1.      The Commission Advanced Funds in Excess of Cash Needs

        Prior to PY 2001, the Commission advanced funds to its subrecipients. AmeriCorps
subrecipients received advances in four equal installments and Learn and Serve recipients received the
full amount of the grant award. The Commission did not have procedures to ensure that AmeriCorps
subrecipients requesting grant funds had expended prior advances.

         As a result of advancing funds in this manner, some Learn and Serve grant recipients received
advances of Corporation finds that exceeded the amounts these subrecipients incurred and reported as
grant expenditures. The Commission did not reconcile advances with reported subrecipient expenditures
until grant close out. At June 30,2001, payments in excess of the reported expenditures for Grant No.
95LCSIN005 totaled $62,350. Of this amount, the Commission later identified $9,236 as funds to be
returned, because subrecipients did not spend the entire advance. Additionally, the Commission reported
$2,545 of advances on Grant No. 98LCSINO15 that were not supported by subrecipient FSRs. Because
significant time has elapsed since the subrecipients received the advances, amounts may be difficult to
recover.

        According to 45 CFR Section 2541.200 (b)(7), procedures must be followed to minimize the time
elapsing between fund transfer from the U.S. Treasury and disbursement by the grantee and subgrantee
whenever advance payments are made. Additionally, OMB Circular A-102, paragraph 2.a., states that
agencies should minimize the time elapsing between transfer of funds to recipients and recipient needs for
the funds.

        Reconrnrerzdatiorz: We noted that the Commission ceased advancing funds to AmeriCorps
subrecipients subsequent to PY 2000, and accordingly, no further corrective action is necessary.
However, we recommend that for future Learn and Serve grants, the Commission should closely monitor
funds to ensure that advanced monies are used in a timely and appropriate manner, with excess amounts
returned promptly to the Commission.

2.      The Commission Claimed Questioned and Unsupported Costs

        The notes to Exhibits A through F describe questioned costs for allowability of $330,400 and
questioned education awards of $103,791, that are summarized in the table on page 3. These questioned
amounts consist of costs claimed or amounts awarded by the Commission for which documentation
shows that recorded costs were expended in violation of laws, regulations, or specific award conditions or
were costs that require interpretation of allowability by the Corporation.

       In addition, the notes to Exhibits A through F describe unsupported costs of $689,726 and
unsupported education awards of $64,999; these amounts consist of costs claimed or amounts awarded by
the Commission that require additional documentation to support allowability. These unsupported
amounts are also summarized in the table on page 3.

        The Commission's monitoring also found that subrecipients did not consistently maintain
adequate documentation to support expenditures and awards. According to 45 CFR Section 2543.21,
grantees must maintain accounting records supported by source documentation. Instances noted in
Commission monitoring reports included:
                Seven of ten expenditures tested at Horizon House in PY 2000-2001 were not adequately
                documented, and eight of these did not have evidence that the expense was approved
                before payment.

                Training, personal services costs, and member reimbursements charged to AmeriCorps
                did not have proper supporting documentation at Peace Learning Center in PY 2000-
                2001. In addition, salary costs were allocated using the previous year's allocation plan,
                and other costs were not being categorized properly. Payments did not consistently show
                evidence of the executive director's approval.

                Two of five disbursements tested at Valparaiso Community Schools for PY 2000-2001
                did not have appropriate supporting documentation.

                Reimbursement payments and payroll had no evidence of executive director approval at
                Respect Inc. for PY 2000-2001.

                Payments for travel, meals, personal services, and salaries at Holy Cross Associates for
                PY 2000-2001 were not properly supported. In addition, the Commission identified a
                payment for a Sam's Club membership, which is not considered an allowable
                membership.

                TU Mentor Corps was not tracking members' time in PY 2000-2001. Two members were
                granted prorated education awards, but the subrecipient could not provide documentation
                that the members served enough hours required for a partial award. In addition, one
                member received a living allowance for a third term.

       Recontnzeizdation: We recommend that the Corporation follow up with the Commission to
determine if questioned and unsupported amounts should be disallowed and recovered.

3.      The Commission and its Subrecipients Did Not Submit Financial Status and Progress
        Reports in a Timely Manner

         The Commission did not submit its FSRs in a timely manner. According to 45 CFR Section
2541.410(b)(4), reports are to be submitted on a quarterly or semiannual basis and are due 30 days after
the reporting period ends, and final reports are due 90 days after the expiration or termination of grant
support. Of the 82 FSRs submitted by the Commission to the Corporation for PY 1997-2001,36 were
either late or undated, which precluded our assessment of the timeliness of submittal.

        In addition, our testing revealed that several of the Commission's subrecipients filed late FSRs,
closeout, or progress reports, as follows:

                FAC filed three FSRs more than 30 days after the end of the reporting period, and it filed
                closeout forms for PY 1997-1999 more than 1 year after the due date. The filing dates
                for PY 1997-1999 progress reports were not documented.

        0       VCS could not provide a progress report for the quarter ending June 30, 2000. In
                addition, it submitted closeout forms for PY 1998-1999 one year after the due date.

                CYAR could not provide three FSRs for PY 1997-2000 and one progress report for PY
                1997-1998. In addition, one FSR for this period was not dated, and therefore no
                evidence existed that the report was submitted on time.
                Indy Youth Ministries did not submit quarterly FSRs for the period April 1998-
                September 1998. In addition, it did not submit its final FSR for the grant period ending
                September 1998 to the Commission until September 2002.

                IU East Volunteer Action Center submitted its final FSR, progress reports, and closeout
                form for PY 1998-1999 late. Also, it had not submitted an Annual Accomplishment
                Report for that year as required by Promise Fellows Special Provisions, Reporting
                Requirements.

                Junior Achievement only submitted annual, undated, progress reports for PY 1998-2000.
                In addition, it did not submit Annual Accomplishment Reports.

      As of February 8,2002, the Commission had not submitted its grant closeout form for Grant No.
94ASCIN0015 (AmeriCorps), which expired December 3 1,2000.

       Recomnzc~tdation: We recommend that the Commission implement procedures to ensure timely
submission of all FSRs and grant closeout documents.

4.      Subrecipients Did Not Comply with Program Requirements

        As part of its monitoring requirements, the Commission is responsible for ensuring that
subrecipients are adequately trained in programmatic requirements, including those for document
retention. Our testing of subrecipient member files disclosed that some subrecipients were not complying
with program requirements as follows:

                Member files at nine subrecipients were missing documentation on mid-term and/or final
                evaluations. Grantees are required to conduct at least mid-term and end-of-term
                evaluations on each member's performance. AmeriCorps Special Provisions, Member
                Records and Confidentiality, stipulates that evaluations are to be performed to document
                that the member has:

                        Completed the required number of hours.
                        Satisfactorily completed assignments.
                        Met other performance criteria that were clearly communicated at the beginning
                        of the service term.

        The following subrecipient files were missing these evaluations:
                                                                   Number of Files
             Subrecipient                     Period         Tested Missing-Evaluations
             FAC                             1997-2000         23            18
             CYAR                                              21
             SSAC                                              28
             CCI                                               28
             lU Mentor Corps                                   33
             Peace Learning Center                             11
             Holy Cross Associates                            UTD*
             VCS                                              UTD
             Junior Achievement                                 2
        *       Testing done by Commission during monitoring. The monitoring workpapers do not indicate the
                sample size. Accordingly, we have labeled as unable to determine (UTD).
    Member files at nine subrecipients did not always include high school diplomas or
    equivalent records. If a member does not have a high school diploma or equivalent at
    enrollment time, the grantee must obtain a record of the elementary or high school drop-
    out date and the member's written agreement to obtain a high school diploma or
    equivalent before using the education award (ArneriCorps Special Provisions, Member
    Records and Confidentiality). Failure to obtain this information could result in education
    awards to ineligible individuals. Member files were missing high school diplomas or
    equivalent information, as follows:

                                                    Number of Files
    Subrecipient                 Period        Tested Missing Information
    FAC                         1997-2000        23            11
    CYAR                        1997-2000        21            10
    SSAC                        1997-1999        28            9
    VCS                         1999-2000        14             1
    IU Mentor Corps             2000-200 1       33            18
    Peace Learning Center       1999-2000        11            4
    Holy Cross Associates       2000-2001       UTD            2
    Horizon House               2000-200 1       14            10
    Respect, Inc.               2000-200 1      UTD             1


    Several subrecipient files were missing complete member agreements, as follows:

                                                    Number of Files
    Subrecipient                 Period        Tested Missing Agreements
    FAC                         1997-2000        23            13
    CCI                         1997-2000        28            13
    Peace Learning Center       1999-2000        11             1


    Member agreements were missing the signature of the program director or certifying
    officer, as follows:

                                                     Number of Files
                                                       Missing- Signatures
                                                                   -
    Subrecipient                 Period         Tested   on Agreements
    CYAR                        1997-2000         21            12
    SSAC                        1998-1999         28             1
    IU Mentor Corps             2000-200 1        33            8
    Holy Cross Associates       2000-200 1       UTD             1


0   Six subrecipient contracts did not include all required provisions. Grantees must ensure
    members sign contracts stipulating the following (ArneriCorps Special Provisions, Living
    Allowances, Member Contracts):

            Minimum number of service hours needed to be eligible for the education award.
            Acceptable conduct.
        Prohibited activities.
        Requirements under the Drug Free Workplace Act.
        Suspension and termination rule.
        Specific circumstances under which a member may be terminated.
        Position description.
        Grievance procedures.
        Other requirements as established by the program.

More specifically:

        Horizon House PY 2000-2001 member contracts did not include suspension and
        termination rules, as well as situations in which members would be released for
        cause. Additionally, these contracts were not dated.

        IU Mentor Corps PY 2000-2001 member contracts did not include a list of
        prohibited activities or Drug Free Workplace Requirements. Additionally, eight
        member files at IU Mentor Corps did not have copies of signed member
        contracts.

        Peace Learning Center PY 1999-2000 member contracts did not include the
        nature and location of the member's service activities. The PY 2000-2001
        contracts did not contain a list of prohibited activities. Also, a member contract
        for one PY 2000-2001 member did not exist.

        Valparaiso PY 1999-2000 member contracts lacked the necessary arbitration
        clause.

        Holy Cross Associates PY 2000-2001 member contracts did not include rules for
        acceptable conduct, list of prohibited activities, requirements under the Drug Free
        Workplace Act, and a position description. Additionally, termination and
        suspension procedures as well as the amount of stipend to be received were not
        outlined. In addition, one contract was missing a member signature.

        CYAR PY 1997-2000 member contracts did not stipulate Drug Free Workplace
        Requirements. In PY 1999-2000, the contracts also lacked a position description.

 Seven subrecipient files did not contain evidence that background checks were performed
 on members working with children, as follows:




CYAR                      1997-2000         21
SSAC                      1997-2000         28
CCI                       1997-2000         28
IU Mentor Corps           2000-200 1        33
Peace Learning Center     1999-2000         II
Holy Cross Associates     2000-2001        UTD
Programs whose members have substantial direct contact with children must conduct
criminal record checks on these members and maintain related documentation in member
files (AmeriCorps Special Provisions, Member Eligibility, Recruitment and Selection).
Failure to perform these background checks could result in children being exposed to
members with histories of criminal violations.

Member files at four subrecipients lacked sufficient information to document member
enrollments, change of status, and exits. Member enrollment forms must be submitted to
the Corporation no later than 30 days after a member is enrolled, change of status forms
within 30 days of status change, and member exitlend-of-term-of-service forms no later
than 15 days after a member exits the program (AmeriCorps Special Provisions,
Reporting Requirements). Subrecipient failure to obtain and submit this information
promptly results in inaccurate Corporation member enrollment records. The sites with
files missing or with incomplete enrollment, change of status, or exit forms are as
follows:

                                                  Number of Files
  Subrecipient                 Period        Tested Missing Forms
  FAC                         1997-2001        23            1
  SSAC                        1997-2001        28            7
  CCI                         1997-2001        28           12
  KJ East                     1998-1999         1            1


In addition, we noted that enrollment and end-of-term-of-service forms were not
submitted within the required period, as follows:

                                                  Number of Files
  Subrecipient                Period         Tested Submitted Late
  FAC                        1997-200 1        23            19
  IU East                    1998-1999          1             1
  VCS                        1998-2000         14            4
  Holy Cross Associates      2000-2001        UTD            2
  Junior Achievement         1998-2000          2            2


Seven subrecipients could not provide sufficient information to support member
citizenship status. This information is necessary to ensure that members are eligible to
participate in the program. According to 45 CFR Section 2522.200, to be eligible, an
individual must be a citizen, national, or lawful permanent resident alien of the United
States. Member files did not include adequate citizenship status documentation as
follows:
                                                Number of Files
Subrecipient                Period        Tested Missing Information
FAC                        1997-2000        23            10
CYAR                       1997-2000        21            10
SSAC                       1997-1999        28            10
CCI                        1997-1999        28            8
KJ Mentor Corps            2000-200 1       33            9
Peace Learning Center      1999-2000        11            4
Horizon House              2000-200 1       14            9


Member files at five subrecipients did not have copies of required tax filing
documentation. AmeriCorps Special Provisions, Living Allowances, In-Service Benefits
and Taxes, states that grantees must withhold personal income taxes from member living
allowances, require each member to complete a W-4 form at the beginning of the term of
service, and provide a W-2 form at the close of the tax year. The following sites did not
have W-2s and/or W-4s available for our review:

                                                Number of Files
Subrecipient                Period        Tested Missing Information
Marion County FAC         1997-2000         23             4
CYAR                      1997-2000         21            14
SSAC                      1997-1999         28            15
Peace Learning Center     1999-2000         11            11
Holy Cross                2000-200 1       UTD             2


Two subrecipients were missing training documentation for some of their members, and
one did not provide all required member training. AmeriCorps Special Provisions,
Member Training, Supervision, and Support, state that the grantee must provide members
with the training necessary to perform tasks required for assigned project positions, and
require that each member attend an orientation. VCS could not provide documentation to
support training attendance for five individuals. FAC was not able to support training
attendance for seven individuals. During a monitoring visit, the Commission interviewed
a member at Holy Cross Associates who did not attend an orientation.

The Commission's monitoring also found that some Holy Cross Associates member
positions may be unallowable, because they replace paid positions or include prohibited
activities. For example, one member was assigned to perform only clerical duties, and
several others performed duties for which the subrecipient would have had to hire a
worker if the member was not present.

Two subrecipient member contracts stipulated fines that were either excessive or
improperly imposed. AmeriCorps Special Provisions, Minor Disciplinary Actions, state
that subrecipients may impose a reasonable fine on members, but these fines may not be
deducted from stipends. VCS member contracts stated that fines for tardiness or
unauthorized absences would be deducted from member stipend payments. In PY 1999-
2000, these fines ranged from $30 to $300 depending on the number of incidences. This
does not appear reasonable given that the average PY 1999-2000 full-time stipend was
$347.50 per 2-week period. The Commission's monitoring also found that Horizon
House assessed two members $50 fines as a disciplinary action. The Commission
directed the subrecipient to repay the members.

The Commission's monitoring found that two subrecipients were treating members as
employees. I  U Mentor Corps was paying its PY 2000-2001 members in hourly
increments. AmeriCorps Special Provisions, Living Allowances, In-Service Benefits and
Taxes, stipulate that programs must not pay a living allowance on an hourly basis. Peace
Learning Center's policies and procedures manuals referred to members as employees.
According to 45 CFR Section 25 10.20, a participant may not be considered a program
employee.

CCI did not have evidence of proper parental consent for one member under the age of
18, as required by the AmeriCorps Special Provisions, Member Eligibility, Recruitment
and Selection.

Three subrecipients did not have evidence that health care coverage was offered to full-
time members. Four FAC files and two VCS files were missing either coverage or
waiver information. IU Mentor Corps had no evidence that coverage was offered to one
member. AmeriCorps Special Provisions, Living Allowances, Other In-Service Benefits
and Taxes, state that grantees must provide a health care policy to full-time members not
otherwise covered at program enrollment and to those who lose coverage during their
service term as a result of program participation or through deliberate act of the member.

Several subrecipients did not maintain documentation that members served the hours
reported to the National Service Trust. AmeriCorps Special Provisions, Member Records
and Confidentiality, Record-keeping, require that the grantee maintain verifiable records
that document service hours per week for each member, location of service activities, and
project assignment. Records must be sufficient to establish that the individual
successfully completed program requirements with a minimum of 1,700 hours of
participation as a full-time member or 900 hours as a part-time member. We noted,
however, that:

a       Timesheets were missing from three member files at FAC.

        Four member files were missing timesheets at CYAR and five at SSAC in PY
        1997-1998.

        At IU Mentor Corps, 24 member files were missing timesheets. Timesheets for
        five members were missing either member or supervisor signatures. In PY 2000-
        2001, time served by members was not being tracked to determine progress
        toward completing service.

        Timesheets in 4 of 14 member files for PY 2000-2001 at Horizon House were not
        signed by the member.

a       Several PY 1999-2000 Peace Learning Center timesheets were missing member
        signatures. Timesheets for two PY 2000-200 1 members were missing member or
        supervisor signatures. Additionally, two files did not include all timesheets (files
        were not current).
                         The Commission's monitorhg found a number of time reporting issues at Holy
                         Cross Associates in PY 2000-2001, including a file with no timesheets, others
                         that were missing some periods, eight with mathematical errors, and one
                         timesheet not signed. A few members had timesheets that evidenced more than
                         the allowable amount of hours within a set period.

         Reconrnrerrdatiorr: While monitoring efforts have been improving since July 2000,
noncompliance with grant requirements continues to occur. Additionally, for subrecipients receiving
funding only in the two most recent years [those in which we relied on Department of Workforce
Development (DWD) monitoring efforts for audit coverage], similar issues existed. Therefore, it appears
that the Commission needs to strengthen its training efforts and support to subrecipients for the following
grant requirements:

                Member participation eligibility documentation verification and retention.
                Member performance evaluations.
                Necessary and appropriate provisions in member contracts.
                Obtaining and maintaining background checks on members serving vulnerable
                populations.
                Timely filing of member forms.
                Timely submission of programmatic and financial reports.
                Maintaining sufficient information to support member service and award eligibility.
                Overall document retention.

5.      Subrecipients Did Not Meet Matching Requirements

        The subgrant agreements between the Commission and AmeriCorps subrecipients require each
subrecipients to match a certain percentage of costs. Two subrecipients could not provide support for
claimed AmeriCorps matching, as follows:

                CCI could not provide supporting documentation for $28,209 in claimed matching
                contributions, as follows:

                         Program Year                     Amount
                         1997-1998                        $14,494
                         1998- 1999                         2,572
                         1999-2000                            702
                         2000-200 1                        10,441

                FAC could not provide supporting documentation for $187,67 1 in claimed matching
                contributions, as follows:

                         Program Year                     Amount
                         1997-1998                        $174,026
                         1998-1999                          10,815
                         1999-2000                           2,830

        According to 45 CFR Section 2543.23, all matching contributions must be verifiable from
recipient records. We did not question these AmeriCorps matching amounts, because the Commission
met statutory matching requirements for this program.
        Reconmendatiort: We recommend that the Commission monitor matching on a regular basis to
ensure that both the Commission and its subrecipients are meeting all grant matching requirements.

6.       The Commission Could Not Provide Evidence of Program Goal Evaluation

        The Commission either did not assess subrecipient accomplishment of program goals during PY
1997-1999 or did not document its evaluation. While the Commission's files included most subrecipient
progress reports for this period, no evidence existed to show that these reports were reviewed. According
to 45 CFR Section 254 1.400, "grantees must monitor grant and subgrant supported activities to assure
compliance with applicable Federal requirements and that performance goals are being achieved." The
Commission currently documents its review of subrecipient reports with a Progress Report Review form.

      Recommendation: No recommendation is currently necessary since the Commission has already
implemented corrective action.

7.      Subrecipients Did Not Monitor Advances to Host Sites

         Some subrecipients did not monitor advances to their subrecipients (host sites). For example,
CYAR awarded advances in the amount of the full award to host sites, but did not reconcile these to
actual expenditures. It reported only the advances on its FSRs; thus, it may have misreported actual grant
costs. In June 2002, the Commission discovered that CYAR's host sites had deposited grant funds in
endowment accounts. According to 45 CFR Section 2543.21, subrecipient financial management systems
must maintain effective controls over accountability for all funds, and cash advances must be limited to
minimum amounts needed and timed in accordance with actual, immediate cash requirements.
Additionally, both CYAR and SSAC did not monitor program sites to ensure that claimed expenditures
and match were supported and in compliance with the subgrants. Grantees are required to monitor
programs to ensure compliance with grant conditions (45 CFR Section 2541.400).

        Recornmendation: We recommend that the Commission require CYAR to provide
reconciliations of all host site program expenditures with advances and to limit future advances to
immediate cash needs of host sites. We further recommend that the Commission conduct additional
training to ensure that its subrecipients are aware of their responsibilities for managing funds provided by
the Commission.

       This report is intended solely for the information and use of the OIG, the Corporation
management, the Commission, and the U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.

                                                  COTTON & COMPANY LLP


                                              BY. &-
                                                Alan Rosenthal, CPA
                                                Partner
                                                                             PANY
                                                  auditors o advisors
DAVIDL. COTTON,CPA, CFE, CGFM 4 CI-IARLI:~                                                   CI'A, CFE + CAT)II:KINE L. NOCERA,
                                         HAY\Y/AI:I, CPA, CFF, ClSA 4 h,llCHAEl. W CILLCSI'IE,                               CI'A
                    WIOHNSON,
         M A ~ T H EH.      CPA, CGFh.1 + SAM HALXE'I., CPA, CCI:I\.I + COI ETTL Y WIL.SON, CI'A 4 ALANROSCNTHAL,     CI'A


                                                     November 18,2002


   Inspector General
   Corporation for National and Community Service


                     INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL

          We have audited costs claimed by the Indiana Commission for Community Service and
   Volunteerism (the Commission) to the Corporation for National and Community Service (the
   Corporation) for the following awards and have issued our report thereon dated November 18,2002,
   which report was qualified for the matters discussed therein.


   Program                                          Award No.                Award Period                Audit Period*
   AmeriCorps                                      94ASClN0 15             08/01/97-12131100           10101197-12131100
   Administrative                                  94SCSINO15              12121193-1213
   Program Development Assistance
    and Training                                  95PDSIN0 15              01/01/95-1213
   Learn and Serve                                95LCSlNOO5               10/01/95-1213
   State Disability Funds                         97DSCINO 16              0210 1197-1213
   Education Awards                               97E.DSINO17              05/01/97-1213
   Learn and Serve                                98LCSINO15               12/01/98-11/30/01           12101198-06/30/01
   America Reads                                  98ARCINO11               08101198-12131100           08/01/98-12/31/00
   Promise Fellows                                98APSINO15               11/01/98-06/15/00           11/01/98-06/15/00
   Promise Fellows                                99APSINO 15              10/21/99-12/31/01           10/21/99-09/30/01
   AmeriCorps                                     OOASCINO 15              0810 1100-07131/03          0810 1100-09130101
   AmeriCorps                                     OOASFINO 15              0910 1100-08131103          0910 1100-09/30/01
   Administrative                                 0 1SCSINO 15             01/01/01-12/31/03           01/01/01-09/30/01



           Except as discussed in the third paragraph in our Independent Auditors' Report, we conducted
   our audit in accordance with generally accepted auditing standards accepted in the United States of
   America and Government Auditing Standards issued by the Comptroller General of the United States.
   These standards require that we plan and perform the audit to obtain reasonable assurance that costs in
   financial schedules are free of material misstatement.

             Commission management is responsible for establishing and maintaining internal control. In
   fulfilling this responsibility, estimates and judgments by management are required to assess expected
   benefits and related costs of internal control policies and procedures. The objectives of internal control
   are to provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition and that transactions are executed in accordance with
management's authorization and recorded properly to permit preparation of financial schedules in
accordance with generally accepted accounting principles. Because of inherent limitations in internal
control, errors or irregularities may nevertheless occur and not be detected. Also, projection of any
evaluation of internal control to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of
policies and procedures may deteriorate.

        In planning and performing our audit, we considered the Commission's internal control to
determine our auditing procedures for the purpose of expressing an opinion on the financial statements
and not to provide assurance on internal control.

        We noted five matters involving internal control and its operations that we consider reportable
conditions under standards established by the American Institute of Certified Public Accountants
(AICPA). Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of internal control over financial reporting that, in our judgment,
could adversely affect the Commission's ability to record, process, summarize, and report financial data
consistent with management assertions in the financial schedules. These matters are discussed below.

1.       Subrecipient Financial Monitoring was Not Adequate

        Prior to July 2000, the Commission did not consistently monitor subrecipient financial
performance. In July 2000, the Commission reorganized and assigned many financial management
functions, including periodic monitoring, for Corporation awards to the Department of Workforce
Development (DWD). As a result of this reorganization, the Commission made a number of
improvements to its financial monitoring activities. We found that:

                The Commission had monitoring tools for site visits; forms were not, however,
                consistently completed, specific items reviewed were not documented, and reviews did
                not test all relevant compliance terms. In addition, the Commission had no review
                process to monitor its Learn and Serve subrecipients. (Because these are smaller
                subgrants, the Commission deemed them to be relatively low risk.)

                 According to 45 CFR Section 2541.400, however, grantees must monitor subgrant
                 support activities to ensure compliance with applicable Federal requirements. The
                 Commission has incorporated monitoring guides and review worksheets for its
                 AmeriCorps grants to correct these deficiencies.

                 The Commission did not verify amounts reported by subrecipients on FSRs to accounting
                 detail to verify the accuracy and allowability of reported costs. The Commission also did
                 not verify that subrecipients were reporting required match amounts. As a result,
                 unallowable and unallocable amounts may have been claimed for reimbursement, and
                 subrecipients may not have complied with grant matching requirements.

                 The Commission's current monitoring includes comparing accounting detail for a given
                 period to the most-recent-periodic expense report and FSR. Instances continued,
                 however, where subrecipient FSRs were not supported by accounting detail. Several
                 subrecipients could not reconcile their accounting records with their FSRs.
               AmeriCorps Financial Management Provisions require that grantee's financial
               management systems include a clear audit trail and are capable of distinguishing
               expenditures attributable to the grant. We noted that:

                       Marion County Family Advocacy Center and Community Centers of
                       Indianapolis could not reconcile accounting records to FSRs for PY 1997-2001.

                       Sullivan County Soil could not reconcile its accounting detail with claimed
                       expenditures on its final FSR.

                       Valparaiso Community Schools could not provide cash-match accounting detail
                       for PYs 1998-2000 and could not reconcile its periodic expense reports to its
                       financial records for PY 1999-2001.

                       Neutral Zone of Laporte (NZL) revised its total costs claimed on Grant No.
                       98LCSINO 15 several times by submitting three FSRs. It appears that NZL's
                       financial system did not generate records meeting requirements of 45 CFR
                       Section 2543.21 (Standards for Financial Management Systems).

               The Commission did not have procedures to require reporting and resolving deficiencies
               noted in subrecipient site visits. According to 45 CFR Section 2541.400, grantees are
               responsible for managing daily operations of grant and subgrant supported activities.
               Grantees must monitor these activities to assure compliance with applicable Federal
               requirements. The Commission did not send site visit reports to subrecipients, require
               action plans, or perform follow up to ensure that weaknesses were corrected. The
               Commission does, however, maintain an audit resolution staff that tracks corrective
               action for deficiencies noted in each site visit.

               The Commission did not have procedures to ensure that subrecipient OMB Circular A-
               133 audits were performed when necessary, or that the Commission received these
               reports on a timely basis. We noted that Commission files did not include required A-
               133 reports for five subrecipients from 1996 through 1998, and we found no evidence
               that these were requested. According to 45 CFR Section 2541.260, the Commission is
               required determine if state or local subrecipients have met A-133 audit requirements.
               The Commission has subsequently established a policy requiring subrecipients to submit
               audit reports.

               The Commission did not reconcile amounts reported on subrecipient A-133 reports to
               expenditures per Commission records. Also, unless the subgrant was audited as a major
               program, the Commission did not review A-133 reports for findings that could impact
               subgrantee funds. According to 45 CFR Sections 2541.260 and 2541.400, grantees are
               required to monitor these reports and ensure that subrecipients are complying with
               applicable Federal requirements.

          Recommendation: We recommend that the Commission continue its efforts to ensure adequate
financial monitoring of subrecipients and prompt followup and resolution of monitoring issues. We
recommend that for future Learn and Serve grants, the Commission implement review procedures to
ensure that subrecipients are complying with grant requirements. For example, these subrecipients can be
reviewed using more cost-effective means, such as a risk-based desk reviews. We also recommend that
the Commission use the checklist it has recently created to consistently review A-133 audit reports, and
that it reconcile amounts reported to payments made to subrecipients.
2.      Financial Grant Management Duties Were Not Adequately Segregated

        The Commission did not adequately segregate financial grant management duties until July 2000
when it assigned these responsibilities to DWD. A March 1999 Indiana State Board of Accounts audit
found that the grant manager was responsible for writing checks, signing checks, posting transactions, and
preparing reconciliations. According to 45 CFR Section 2541.200, grantees are required to maintain
effective controls for all grant cash, property, and other assets. The Commission has subsequently
segregated these responsibilities.

          We noted that smaller subrecipients had similar segregation-of-duties issues. For example, NZL
did not adequately segregate duties for accounts payable and for payroll. Sullivan County Soil also did
not adequately segregate accounts-payable duties. The same individuals process invoices, sign checks,
and reconcile bank statements. Additionally the Commission's monitoring found that Peace Learning
Center did not have adequate segregation of accounting responsibilities: one individual received and
opened mail, recorded cash receipts, prepared bank deposits, and recorded these in the accounting
records. Also, the subrecipient was not preparing bank reconciliations on a timely basis, and cash receipts
were not deposited on the day received. According to 45 CFR Section 2543.21, subrecipients are
required to maintain financial management systems that provide effective control and accountability for
all funds.

        Recommendation: We recommend that the Commission continue to review subrecipient
financial processes to ensure that proper segregation of duties exists, and that smaller organizations have
proper mitigating controls if segregation of duties is not feasible to ensure that Corporation funds are
properly controlled.

3.      Past Performance Was Not Formally Considered During Funding Decisions

         The Commission has not formally reviewed subrecipient financial systems, prior A-133 reports,
or prior site monitoring results during the subgrant renewal process. While Commission management is
aware of major A-133 report and monitoring issues, this information is not consistently documented for
consideration in the renewal process.

         According to 45 CFR Section 254 1.430: "If a subgrantee materially fails to comply with any term
of an award, the awarding agency may.. .wholly or partly suspend the current award or withhold further
awards for the program." Failure to consistently evaluate experience and consider subrecipient capability
to comply with financial requirements of an award could result in awards to subrecipients that are unable
to satisfactorily carry out program goals. Commission management stated that they have revised their
renewal review sheet for PY 2002-2003 to include formal consideration of performance in the decision
process.

         Recommendation: We recommend that the Commission document subrecipient performance so
that this information can be used consistently in funding decisions.

4.       Review of Member Activities Was Not Documented

       Prior to July 2000, the Commission did not document its review of member activities to ensure
that members were complying with provisions related to prohibited activities. The Commission reviewed
program applications to ensure that expected activities were allowable and proper, but we found no
evidence of subsequent member activity reviews to ensure that stated descriptions were accurate.
AmeriCorps Special Provisions, Prohibited Program Activities, detailed a number of activities in which
members are not allowed to participate. Failure to properly monitor program performance could result in
grant funds being expended on prohibited activities. The Commission's current site-monitoring visits
include documented procedures to verify the appropriateness of member activities.

      Reconimiendation: No recommendation is necessary since the Commission has aIready
implemented corrective action.

5.      Procedures to Verify Member Hours Reported Did Not Exist

         Prior to July 2000, the Commission did not have procedures to ensure that member hours reported
to the National Service Trust were accurate and proper. AmeriCorps Special Provisions, Post-Service
Educational Awards, require that grantees certify to the National Service Trust that members are eligible
to receive education benefits. The Commission did not review service hours reported by subrecipients to
ensure that they were supported by member timesheets. Failure to verify reported hours could result in
the award of education benefits to ineligible members. The Commission's current monitoring procedures
include verifying that hours reported to the National Service Trust are reconciled to member timesheets.

      Reconr~?rendation:No recommendation is necessary since the Commission has already
implemented corrective action.

         A material weakness is a condition in which the design or operation of one or more of the specific
internal control components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the schedules of award costs being audited may occur and
not be detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of internal control over financial reporting would not necessarily disclose all
matters in internal control that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. However, we
consider inadequate subrecipient financial monitoring (the first matter listed above involving internal
control and its operation) to be a material weakness.

        This report is intended solely for the information and use of the OIG, Corporation management,
the Commission, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.


                                                  COTTON & COMPANY LLP


                                              By:  %f2---7
                                                Alan Rosenthal, CPA
                                                Partner
                           APPENDIX A




COMMISSION'S RESPONSE TO
  DRAFT AUDIT REPORT
                                                                                               Frank O'Bannon, G o m r                         Judy O'Bannon, Honway C h i r
                                                                                               Lynn Coleman, Chair                             Joseph L. Smith, Ekautve Drehr

                                                                                               Phone: 3 1 7 . ~ 3 3 . W B                      Fax: 317,233.5660

                                                 eers
Indiana Commission on Community Service and Volunteerism
                                                                                               Toll Free 888.535.9+90

                                                                                                    West Washington Street, Room m0
                                                                                                                                               Web Site: uw.IN.govliccsv

                                                                                                                                                   0   Inhapolis, Indiana 46204.

        January 3 1,2003

        Mr. Terry E. Bathen
        Deputy Inspector General for Audits and Policy
        Corporation for National and Community Service
        Office of Inspector General
        1201 New York Avenue, NW
        Washington, DC 20525

        Dear Mr. Bathen:

        Please find enclosed our response to the draft audit report of the Indiana
        Commission on Community Service and Volunteerism (ICCSV) for the
        period from October 1, 1997 through September 30,200 1. Since ICCSV's
        partnership with the Indiana Department of Workforce Development (DWD)
        began in July 2000, many improvements have been made to our financial and
        administrative processes that allay the draft findings in the report.

        It is our commitment to work cooperatively and with due diligence to ensure
        that federal and state h n d s received by ICCSV remain fully accountable.
        The ICCSV looks forward to a continuing and prospering relationship with
        the Corporation for National and Community Service for the programs that it
        administers on its behalf.

        Thank you for the opportunity for us to respond to the draft audit findings. If
        you have any questions, please cont act Amber Roos, Deputy Director of the
        ICCSV at (3 17) 233-0900 or Clay Jackson, Chief of Analysis and
        Reconciliations for DWD at (3 17) 232-7366.

        Sincerely,
                   i

           YP-              4&
         Joseph L. Smith, Sr.
     ,,/
         Executive Director                                                                            Commissioner
         ICCSV                                                                                         DWD

        lie Indii~aCommission on Community Senriceand Volunteerism challenges
                                                                            - the.people of India to shpn&en heir communities t h m ~ senice
                                                                                                                                          h    and volunte&m. We i d e n e
            and mobilize resourn,     ananethiiof senice, and develop in communities & capity to solve pr&lems and impmve the quali{oflife for all individualsand ~unilies.
                                                         ICCSV Audit Official Response Page 1


      Response to Draft Findings from the Corporation for National and
              Community Service Office of Inspector General
    Indiana Commission on Community Service and Volunteerism Audit
                                   Executive Summary

The Indiana Commission on Community Service and Volunteerism (ICCSV) appreciates
the opportunity to comment on the careful and comprehensive review of its national and
community service programs conducted on behalf of the Corporation for National and
Community Service (CNCS), Office of the Inspector General (OIG) for the period
October 1, 1997 through September 30,2001. Since July 1,2000, the ICCSV has made
significant improvements to its operations. On this date, the ICCSV entered into a
partnership agreement with the Indiana Department of Workforce Development (DWD).
The Department assumed responsibility for the management of all financial and
administrative functions of the ICCSV's state and federal funds, including monitoring
programs for compliance.

The ICCSV is confident that it has taken corrective action on the underlying issues
outlined in the OIG's Audit Report. The ICCSV's certainty is rooted in the actions taken
to date to rectify the findings and to prevent similar issues from reoccurring in the future.
Actions that have been taken to correct findings include the following:

   Since July 2000, the ICCSV policy is that payments made to subrecipients are made
   on a cost reimbursement basis.
   Annual programmatic and financial monitoring and follow up of any findings of all
   AmeriCorps subrecipients will continue to take place as it has since the 1999100 grant
   year.
   There has been significant improvement with the ICCSV and its subrecipients
   submitting required reports on a timely basis.
   Since June 2001, match verification procedures have been in place for the
   AmeriCorps subrecipients.
   The ICCSV utilizes a standard form (tool) to evaluate the progress of subrecipients'
   accomplishments and outcomes of program objectives.
   Financial grant management duties were adequately segregated through the alignment
   with the DWD on July 1,2000.
   The ICCSV uses a Renewal Review Sheet to assess subrecipients' past performance
   in making funding decisions.

The ICCSV is continuing its efforts to address issues associated with the Report's
findings that include the following:

1. Closing out the 95LCSIN005,98LCSIN015, and 94ASCIN015 grants with the
   CNCS.
2. Resolving the endowment issue with the Center for Youth as Resources (CYAR) in
   cooperation with the CNCS.
                                                     ICCSV Audit Official Response Page 2


3. Evaluating the cost-benefit relationship of instituting the A- 133 expenditure
   reconciliations with the ICCSVYspayment records as recommended by the auditors.
4. Finalizing a monitoring plan for any future Learn and Serve subrecipients.
5. Obtaining supporting documentation from the subrecipients to address any of the
   outstanding findings.

In October 2002, CNCS staff and consultants visited the Commission to review Indiana's
State Administrative Standards. The review rated Indiana's standards as exceptional.
The CNCS' reviewers noted that the financial and administrative systems used by DWD
were among the best in the nation and provided for strong oversight and management of
fiscal funds as well as timely disbursements.

The ICCSV takes seriously its responsibility for managing state and federal programs and
funds in a fully accountable manner. The ICCSV will continue to make improvements,
where necessary, to ensure that state and federal funds are managed efficiently and
effectively and within the parameters of state and federal regulations.
                                                       ICCSV Audit Official Response Page 3


      Response to Draft Findings from the Corporation for National and
              Community Service Office of Inspector General
    Indiana Commission on Community Service and Volunteerism Audit

                                      Introduction
                 --   -             -   -             --



The Indiana Commission on Community Service and Volunteerism (ICCSV) appreciates
the opportunity to comment on the careful and comprehensive review of its national and
community service programs conducted on behalf of the Corporation for National and
Community Service (CNCS), Office of the Inspector General (OIG). This review was a
cost-incurred audit of the grants awarded to the ICCSV for the period October 1, 1997
through September 30,2001. The ICCSV in partnership with the Indiana Department of
Workforce Development (DWD), the agency responsible for the fiscal management and
oversight of federal funds allocated to the ICCSV since July 2000, have worked
aggressively to correct all administrative errors and deficiencies.

The ICCSV challenges the citizens of Indiana to strengthen their communities by
engaging in community service and volunteer activities. The ICCSV identifies and
mobilizes resources, promotes an ethic of service, and develops in communities the
capacity to solve problems and improve the quality of life for individuals and families
residing in those communities. One of the primary means of meeting the goals of this
mission is through the administration of federal funds allocated through the ICCSV by
the Corporation for National and Community Service. The ICCSV is able to implement
the goals of its Unified State Plan for Service by directing federal funds to local and
statewide activities that will focus on the goals contained in Indiana's State Plan.

Since July of 2000, the ICCSV has worked with the DWD to ensure that quality systems
are in place for the oversight and management of all federal and state funds. As a result
of this partnership, the ICCSV has realized improvements in the oversight of the
ArneriCorps subrecipients through the DWD's monitoring efforts, increased efficiency in
the disbursement of funds, accountability for these funds, and improved systems for
managing federal accounts. The DWD was not responsible for the financial management
and oversight for the period included in the scope of the audit that is prior to July 2000.

It is important to acknowledge that during the State Administrative Standards review
conducted by the CNCS in September 2000 and during a return visit in October 2002, it
was noted that the systems through the DWD were among the best in the nation and
provided for strong oversight and management of fiscal funds as well as timely
disbursements.

The firm conducting the audit of the ICCSV on behalf of the OIG relied on monitoring
reports completed by the DWD's Oversight Division as the basis for reporting their
findings on the 199912000 (94ASCIN015) and 200012001 (OOASCINO15 and
00ASFIN015) ArneriCorps grants. In the Summary of Tentative Findings presented at
the November 18, 2002 exit conference, the auditors noted that the DWD ensured that
subsequent corrective actions were taken for the findings from the monitoring reports. In
                                                        ICCSV Audit Official Response Page 4


addition, the Summary of Tentative Findings observed that the DWD's monitoring
process was a good example of where efficient and effective oversight was performed on
behalf of the ICCSV. This demonstrates the high level of controls used by the ICCSV in
managing its national and community service programs.

As you will note throughout this response, the ICCSV and the DWD have taken
corrective action to address all administrative errors and deficiencies as noted in the draft
OIG Audit Report. The ICCSV and the DWD will continue to work diligently to correct
all matters pertaining to the audit and have strong procedures and policies in place for
ensuring the highest level of integrity and quality of fiscal oversight and management
with respect to all federal funds. The ICCSV and the DWD look forward to continuing to
provide resolution to all findings in cooperation with the Corporation for National and
Community Service.
                                                           ICCSV Audit Official Response Page 5


                        Draft OIG Compliance Finding 1
              The Commission Advanced Funds in Excess of Cash Needs

Draft OIG Findings:
   Prior to July 2000, the Commission       Resolution is proposed because:
   advanced funds to its subrecipients          It became the policy of the ICCSV in July 2000
                                                to make payments to its subrecipients on a cost
   The Commission did not have                  reimbursement basis.
   procedures to ensure that                    The ICCSV will follow the guidance from the
   ArneriCorps subrecipients                    CNCS when it is received to close out Grant
   requesting grant funds had expended          95LCSINOO5.
   prior advances                               One of the two subrecipients involved with the
                                                $2,545 of advances under Grant 98LCSIN015
   The Commission did not reconcile             submitted a closeout FSR reporting $2,000 of
   advances with reported subrecipient          expenses and the other subrecipient refunded
   expenditures until grant closeout            $545.
   At June 30,2001, payments in           L
   excess of the reported expenditures for Grant 95LCSIN005 totaled $62,350 and of
   this amount $9,236 was identified as to be returned by subrecipients who did not
   spend their entire advance
   The Commission reported $2,545 of advances on Grant 98LCSIN015 that were not
   supported by subrecipient FSRs

Statement of Facts:
   The ICCSV concurs that advances were made to its subrecipients prior to July 2000
   and that it needed to formalize its subrecipient payment processes.
   The ICCSV notes that effective July 2000 and coinciding with the beginning of its
   association with the DWD that its policy became to make payments to its
   subrecipients on a cost reimbursement basis. Small organizations that are
   subrecipients receiving mini grant awards can request exception to this policy if it
   places an undue burden on their ability to manage the program.
   The ICCSV submitted a tentative closeout to the CNCS on December 28,2001 for
   Grant 95LCSIN005.
   The ICCSV submitted a letter to the CNCS dated January 27, 2003 requesting
   guidance on how to close out Grant 95LCSIN005 as many of the subrecipients
   received the awards more than four years ago and it is not likely the remaining close
   outs are easily attainable (See Attachment A).
   The two subrecipients involved in the $2,545 of advances reported on Grant
   98LCSIN015 submitted FSRs to the ICCSV subsequent to the audit end date of
   September 30,2001. YWCA Family Intervention reported $2,000 of expenses on its
   closeout FSR submitted to the ICCSV on September 23,2002. The Cello Cries On
   reported $1,455.17 of expenses on its closeout dated May 22,2002. The Cello Cries
   On refunded $544.83 to the ICCSV on May 24,2002.
   The CNCS provided the ICCSV with an extension to Grant 98LCSIN015 through
   August 3 1,2002
   The ICCSV submitted a tentative closeout to the CNCS on November 26,2002 for
   Grant 98LCSIN015.
                                                      ICCSV Audit Official Response Page 6


ICCSV Action:
   It has been the ICCSV policy since July 2000 that all subrecipient payments are to be
   made on a cost reimbursement basis. Small organizations that are subrecipients
   receiving mini grant awards can request exception to this policy if it places an undue
   burden on their ability to manage the program.
   ICCSV's ArneriCorps grant subrecipients have been monitored every grant year since
   1999100 by DWD. Monitoring procedures include a review of to ensure that
   subrecipients do not have excess cash on hand.
   ICCSV will take appropriate action to close out Grant 95LCSIN005 upon receipt of
   the CNCS' response to the request for guidance.
   CNCS granted the ICCSV an extension until February 28,2003 to submit a final
   closeout for Grant 98LCSIN015.
                                                      ICCSV Audit Official Response Page 7


                       Draft OIG Compliance Finding 2
           The Commission Claimed Questioned and Unsupported Costs

Summary:
It is the ICCSV's opinion that supporting documentation has been provided by
subrecipients to satisfy $469,946 of the questioned costs identified in the draft audit
report. The ICCSV will send the supporting documentation that has been received to
date for these questioned costs under separate cover. The ICCSV is continuing efforts to
obtain the additional supporting documentation from subrecipients to satisfy the
remaining questioned costs.

The draft audit report notes that the ICCSV's monitoring efforts also found that
subrecipients did not consistently maintain adequate documentation to support
expenditures and awards. The audit report should have noted that the DWD on behalf of
the ICCSV had ensured that appropriate corrective actions were taken to correct all such
monitoring deficiencies. This was stated in the Summary of Tentative Findings presented
to the ICCSV and the DWD at the November 18,2002 exit conference.

Draft OIG Findings:
   The auditors have questioned costs for allowability of $35 1,095 and questioned
   education awards of $1O3,79 1
   The auditors have questioned costs for support of $702,012 and unsupported
   education awards of $64,999
   ICCSV monitoring also found that subrecipients did not consistently maintain
   adequate documentation to support expenditures and awards

Statement of Facts:
   The ICCSV believes it has the supporting documentation to satisfy $469,946 of
   questioned costs identified in the draft audit report.
   The ICCSV and the DWD have conducted financial training sessions with
   subrecipients that inform them of grant management requirements such as
   determining the allowability of costs in accordance with the applicable federal cost
   principles and of what constitutes adequate supporting documentation for claimed
   costs.
   The ICCSV submitted a letter to the CNCS dated January 27, 2003 requesting
   guidance on how to close out Grant 95LCSIN005 as many of the subrecipients
   received the awards more than four years ago and it is not likely the remaining close
   outs are easily attainable (See Attachment A).
   The DWD on behalf of the ICCSV has conducted annual programmatic and financial
   monitoring including resolution for the ICCSV's AmeriCorps subrecipients since the
    l999IOO grant year.

ICCSV Action:
   The DWD on behalf of the ICCSV will continue to conduct annual programmatic and
   financial monitoring and resolution for AmeriCorps subrecipients. One of the
                                                    ICCSV Audit Official Response Page 8


financial verification procedures conducted through this process is of the allowability
and support for costs claimed on subrecipient submitted financial reports.
The ICCSV will continue its practice of reviewing past performance and financial
oversight on behalf of subrecipients prior to awarding renewal funds.
The ICCSV will continue to conduct periodic financial training sessions with its
subrecipients to advise them of their financial grant management requirements.
                                                                  ICCSV Audit Official Response Page 9


                       Draft OIG Compliance Finding 3
    The Commission and its Subrecipients Did Not Submit Financial Status and
                    Progress Reports in a Timely Manner

Draft OIG Findings:
   The Commission did not submit its
   FSRs in a timely manner
                                               .
                                          Resolution is proposed because:
                                             ~ h ICCSV
                                                   ,
                                                   - -- -  now uses the D W D formalized
                                                            - -   -   -           ~~
                                             systems for ensuring that its FSRs and closeouts
   The auditors found that 36 of 82          are submitted timely.
   F S R ~submitted by the ~          ~      The  ICCSV
                                                   ~       implemented
                                                                   i    procedures~ for ensuring~        i
                                             that its subrecipients submit their financial and
   from PY 1997-01 were either late or       progress reports timely.
   undated, which precluded their             Community Centers of Indianapolis is the lone of
   assessment of the timeliness of            22 subrecipient closeouts that has not been
   submittal                                  received and that prevents the ICCSV from
   Several of the Commission's                submitting a finalcloseout to CNCS for Grant
                                              94ASCIN0 15.
   subrecipients filed late FSRs,
   closeout, or progress reports        I
   As of February 8,2002, the Commission had not closed out Grant 94ASCIN0015
   which expired December 3 1,2000

Statement of Facts:
   Prior to July 1,2000, the ICCSV concurs that its processes and those for its
   subrecipients for ensuring timely submittal of required financial and progress reports
   was in need of formal documentation.
   Effective July 1,2000, the ICCSV began using new systems including those of its
   partner agency, the DWD, that are formalized and have aided efforts to ensure that
   financial and progress reports are submitted on time.
   In the past, the ICCSV has received extensions for submitting reports beyond the set
   deadlines from the CNCS that may not have been noted in the auditors' review of the
   timeliness of reporting for the ICCSV or its subrecipients.

ICCSV Action:
   Effective July 2000, the ICCSV began using the DWD's Financial Accounting and
   Reporting System that produces monthly financial reports that are used to ensure
   timely submittal of FSRs on behalf of the ICCSV to the CNCS.
   The ICCSV has been following formalized procedures including those of the DWD
   since July 2000 for ensuring that its subrecipients submit financial and progress
   reports by required due dates. The ICCSV has a policy addressing the completion of
   the Financial Status Report for ArneriCorps (See Attachment B).
   Monthly and quarterly financial reports are due to the ICCSV from its subrecipients
   by the tenth calendar day of the month following the previous month or quarter end
   and corrective action is taken if subrecipients fail to meet this deadline.
   The ICCSV submitted a tentative closeout to the CNCS on April 19,2002 for Grant
   94ASCIN015. As of January 3 1,2003, the ICCSV still has not completed closeout of
   one of twenty-two subrecipients awarded subgrants under this grant, which precludes
   it from submitting a final closeout at this time.
                                                    ICCSV Audit Official Response Page 10


The ICCSV continues to work with the Community Centers of Indianapolis (CCI) to
resolve outstanding issues that will lead to the final submission of the closeout to the
CNCS for Grant 94ASCIN015. The ICCSV expects to complete the closeout for the
remaining subrecipients by May 3 1,2003, and the possible submission date of the
final closeout to the CNCS will be June 30,2003.
                                                         ICCSV Audit Official Response Page 11


                         Draft OIG Compliance Finding 4
             Subrecipients Did Not Comply with Program Requirements

Draft OIG Findings:                            I Resolution is ~ r o ~ o s ebecause:
                                                                             d
   Member files at eight subrecipients were      0  The ICC& &rough the DWD has conducted
   missing documentation on mid-term                 annual monitoring of its AmeriCorps subrecipients
   and/or final evaluations                          from the 1999100 grant year forward and will
                                                     continue to do so.
   Member files at nine subrecipients did            Effective July 2000, the DWD on behalf of the
   not always include high school diplomas           ICCSV follows up on any subrecipient findings and
   or equivalent records                             ensures that corrective actions are taken.
   Several subrecipients were missing            0   Effective July 2000, the DWD on behalf of the
   complete member agreements                        ICCSV established written financial and
                                                     programmatic monitoring guides.
   Several subrecipients' member                     The ICCSV staff reviews progress reports
   agreements were missing the signature of          submitted on the Web Based Reporting System
   the program director or certifying officer        (WBRS) for issues and discusses them with
   Six subrecipient contracts did not include 1      subrecipients as necessary.
   all required provisions                           The  ICCSV will continue to conduct periodic
                                                     training sessions with its subrecipients to ensure
   Seven subrecipient files did not contain          that they are aware of the many grant management
   evidence that background checks were              requirement.
   performed on members working with
   children
   Member files at four subrecipients lacked sufficient information to document member
   enrollments, change of status, and exits
   Seven subrecipients could not provide sufficient information to support member
   citizenship status
   Member files at five subrecipients did not have copies of required tax filing
   documentation
   Two subrecipients were missing training documentation for some of their members,
   and one did not provide all required member training
   ICCSV monitoring found that some Holy Cross member positions may be
   unallowable because they replace paid positions or include prohibited activities
   Two subrecipient member contracts stipulated fines that were either excessive or
   improperly imposed
   ICCSV monitoring found that two subrecipients were treating members as employees
   CCI did not have evidence of proper parental consent for one member under the age
   of 18
   Three subrecipients did not have evidence that health care coverage was offered to
   full-time members
   Several subrecipients did not maintain documentation that members served the hours
   reported to the National Service Trust

Statement of Facts:
   The ICCSV concurs that its monitoring procedures to ensure subrecipients'
   compliance with program requirements needed to be formalized and/or updated for its
   monitoring efforts prior to July 1,2000.
                                                     ICCSV Audit Official Response Page 12


   Since July 1,2000, the ICCSV's monitoring efforts have significantly improved
   through its use of DWD's Oversight Division. It was noted for the comments
   originating from DWD's monitoring on behalf of the ICCSV in the Summary of
   Tentative Findings discussed at the November 18,2002 exit conference that this was
   an example where efficient and effective monitoring was performed on behalf of the
   ICCSV by the DWD.
   As noted in the Summary of Tentative Findings presented at the November 18, 2002
   exit conference, the auditors noted the DWD had ensured that corrective actions had
   been taken by the ICCSV's subrecipients to correct deficiencies found in the 1999100
   and 2000101 ArneriCorps grant years monitored.
   The ICCSV has intensified its training efforts with subrecipients to include coverage
   of the myriad of grant requirements since July 2000. The ICCSV staff conduct
   training and technical assistance visits to provide one-on-one training in areas of
   deficiency for programs ensuring compliance with grant requirements.

ICCSV Action:
   The ICCSV will continue to conduct periodic and regular training sessions and
   meetings with its subrecipients that address grant requirements for managing
   ArneriCorps.
   The ICCSV through its partnership with the DWD will continue to conduct annual
   monitoring of the ICCSV's ArneriCorps subrecipients that it started in July 2000 with
   the 1999100 grant year.
   The ICCSV uses the comprehensive financial and programmatic monitoring guides
   developed by the DWD for verifying ArneriCorps subrecipients' adherence to the
   myriad of financial and programmatic requirements.
   The ICCSV through its partnership with the DWD will continue to conduct the
   follow-up process with the ICCSV's subrecipients to ensure that corrective actions
   are taken to correct monitoring report deficiencies.
   The ICCSV will continue to review subrecipient progress reports three times a year
   and will communicate any concerns.
   The ICCSV staff will continue to make training and technical assistance site visits to
   each ArneriCorps subrecipient to ensure weaknesses are addressed.
   The ICCSV will continue its practice of reviewing past performance and financial
   oversight on behalf of subrecipients prior to awarding renewal funds.
                                                       ICCSV Audit Official Response Page 13


                      Draft OIG Compliance Finding 5
   The Commission and Its subrecipients Did Not Meet Matching Requirements

Draft OIG Findings:                      --       --



   The Commission did not meet            Resolution is proposed because:
   matching requirements of Grant            Annual monitoring of AmeriCorps subrecipients
   98ARCINOll                                 started with the 1999100 grant year and it includes
                                             procedures for verifying match claimed on FSRs to
   CCI and Marion County Family              accounting records.
   Advocacy Center (MCFAC) could             The ICCSV received the member support accounting
   not provide support for $28,209 and        detail that addresses the matching shortfall of $20,695
   $l87,67 1 of claimed matching              on Grant 98ARCIN011 from Valparaiso Community
   contributions                              Schools (VCS) on October 2 1,2002.
                                             In June 2001, the ICCSV and the DWD implemented
                                             match reporting standards that are checked with every
Statement of Facts:                          payment request made.
   The ICCSV concurs that it did not
   meet matching requirements for Grant 98ARCIN011 because one of its subrecipients,
   Valparaiso Community Schools (VCS), which was unable to provide match
   accounting detail to the auditors in time for them to review prior to issuance of the
   draft audit report.
   VCS provided the match accounting detail to support the recipient share of member
   support costs to the ICCSV on October 21,2002. At the time that it was submitted to
   the auditors for review, it was too late to be included in the final draft.

ICCSV Action:
   The ICCSV implemented matching standards (Attachment C) in June 2001 for its
   ArneriCorps grantees that are applied each time a subrecipient submits a payment
   request. Payments are withheld if subrecipients are not at match standards until a
   sa&factory explanation is not provided induding an indication of when the
   subrecipient will be on track toward meeting budgeted match levels.
   The ICCSV has implemented annual on-site monitoring of its AmeriCorps
   subrecipients since the 1999100 grant year. This monitoring includes checks of match
   for levels reported in Periodic Expense Reports (PER) on a monthly basis against the
   organization's accounting system records.
                                                      ICCSV Audit Official Response Page 14


                     Draft OIG Compliance Finding 6
    The Commission Could Not Provide Evidence of Program Goal Evaluation

Draft OIG Findings:
   ICCSV either did not assess
   subrecipient accomplishment of              The ICCSV implemented the Progress Report
   program goals during PY 1997-99             Review Form to document its reviews of
                                               subrecipients' progress reports.
   or did not document its evaluation          The ICCSV provides feedback to subrecipients on
                                               its reviews within 30 days of receiving the reports.
Statement of Facts:
   The ICCSV concurs with this finding and implemented corrective action by
   documenting its reviews of subrecipient progress reports through the use of its
   Progress Report Review form.

ICCSV Action:
   The ICCSV uses a Progress Report Review form (Attachment D) to document the
   review of subrecipients' progress reports that are submitted three times a year. The
   review is provided within 30 days of receiving the report.
                                                     ICCSV Audit Official Response Page 15


                         Draft OIG Compliance Finding 7
               Subrecipients Did Not Monitor Advances to Host Sites

Draft OIG Findings:
   CYAR awarded advances in the             Resolution is proposed because:
   amount of the full award to host sites      The ICCSV is working with the Center for
                                               Youth as Resources (CYAR) and CNCS to
   and did not reconcile these to actual       resolve the issue of whether host sites placed
   expenditures                                grant funds in endowments.
   CYAR reported only the advances on          The ICCSV implemented annual monitoring of
   its FSRs and therefore, it may have         its AmeriCorps subrecipients with the 1999100
   misreported actual grant costs              grant year and one of the verification
                                               procedures performed is of any monitoring the
   In June 2002, the ICCSV discovered          ICCSV's subrecipients are doing with their
   that CYAR's host sites deposited            subrecipients.
   grant funds in endowment accounts           The ICCSV will continue to conduct periodic
   State Student Assistance Commission         financial training for its subrecipients.
   of Indiana (SSACI) and CYAR did             The ICCSV is currently in the process of
                                               documenting monitoring procedures for Learn
   not monitor program sites to ensure         and Serve subrecipients for use in the future.
   that claimed expenditures and match
   were supportedand in compliance
   with the subgrants

Statement of Facts:
   Since the issuance of the monitoring report in June 2002, the ICCSV has requested
   that the CYAR provide reconciliations of all host site program expenditures with
   advances for its Learn and Serve funds. The ICCSV has given the CYAR until
   January 3 1,2003 to provide revised FSRs and supporting documentation that reflect
   the reconciliations of advances to expenditures.
   The ICCSV discovered in June 2002 (prior to the visit by the auditors) that the
   CYAR's host sites might have deposited Learn and Serve grant funds in endowment
   accounts. The ICCSV has been working with the CYAR and the CNCS to resolve
   this matter since June 2002.
   Since the start of its partnership with the DWD in July 2000, the ICCSV has
   conducted annual monitoring of its ArneriCorps subrecipients beginning with the
    1999100 grant year and one of the verifications performed is of any monitoring that
   the ICCSVyssubrecipients are doing with their subrecipients.
   The ICCSV had not monitored any Learn and Serve subrecipients prior to the DWDys
   monitoring of CYAR's 1998 Learn and Serve grants in June 2002. This was
   primarily because most of the 1998 Learn and Serve subgrants were of relatively
   small dollar amounts.

ICCSV Action:
   The ICCSV is working with the CYAR and the CNCS to resolve the issue of whether
  the CYAR's host sites placed grant funds in endowments.
  The CNCS has granted the ICCSV an extension until February 28,2003 to resolve
  the CYAR endowment issue and to close out Grant 98LCSIN015.
                                                   ICCSV Audit Official Response Page 16


The ICCSV conducts annual monitoring of its ArneriCorps subrecipients that began
with the 1999100 grant year and one of the verifications performed is of any
monitoring that the ICCSV's subrecipients are doing with their subrecipients.
Since July 2000, the ICCSV and the DWD have conducted approximately four
financial training conference call sessions for subrecipients and four training sessions
including most recently in December 2001, a session by Walker and Company (a
national training provider). ICCSV will continue to conduct periodic financial
training for subrecipients to ensure they are well informed of their financial
management responsibilities.
The ICCSV is currently in the process of documenting monitoring procedures for
Learn and Serve subrecipients for use in the future.
                                                         ICCSV Audit Official Response Page 17


                        Draft OIG Internal Control Finding 1
                 Subrecipient Financial Monitoring was Not Adequate
                                               -         --

Draft OIG Findings:                           Resolution is proposed because:
   Prior to July 2000, the ICCSV did              Since the 1999100 grant year, the ICCSV has
   not consistently monitor                       conducted annual programmatic and financial
   subrecipient financial performance             monitoring of its AmeriCorps subrecipients.
   ICCSV had monitoring tools for site            Since the 1999100 grant year monitoring, the
                                                  ICCSV has followed up on all findings and
   visits; however, forms were not                ensures that corrective actions are taken.
   consistently completed, specific               Prospective and renewal AmeriCorps
   items reviewed were not                        subrecipients are required to submit their most
   documented, and reviews did not                recent audit reports with their new or renewal
   test all relevant compliance terms             applications each year.
                                                  The ICCSV is currently in the process of
   ICCSV had no review process to                 documenting monitoring procedures for Learn and
   monitor its Learn and Serve                    Serve subrecipients for use in the future.
   subrecipients                                  Since June 2001, the ICCSV compares match
   ICCSV did not verify amounts                   reported on subrecipient PERs to matching
   reported by subrecipients on FSRs              standards with each AmeriCorps payment request.
                                                  CCI provided to the ICCSV its reconciliation of
   to accounting detail to verify the             2000101 on November 7,2002 and they are
   accuracy and allowability of                   working to reconcile the other three years.
   reported costs
   ICCSV did not verify that
   subrecipients were reporting required match amounts
   MCFAC and CCI could not reconcile accounting records to FSRs for PY's 1997-01
   Sullivan County Soil could not reconcile its accounting detail with claimed
   expenditures on its final FSR
   VCS could not provide cash match accounting detail for PY's 1998-2000 and could
   not reconcile its periodic expense reports to its financial records for PY's 1999-01
   Neutral Zone of LaPorte (NZL) revised its claimed costs under Grant 98LCNINO15
   three times and it appears that its financial system did not meet the requirements of 45
   CFR Section 2543.2 1 (Standards for Financial Management)
   ICCSV did not have procedures to require reporting and resolving deficiencies noted
   in subrecipient site visits
   ICCSV did not have procedures to ensure that subrecipient A-133 audits were
   performed when necessary or that it received these reports on a timely basis
   ICCSV did not have and did not request A-133 audits for five subrecipients from
    1996 through 1998
   ICCSV did not reconcile amounts reported in A-1 33 reports to its expenditure records

Statement of Facts:
   Since July 2000, the DWD on behalf of the ICCSV has conducted financial and
   programmatic monitoring of AmeriCorps subrecipients starting with the 1999100
   grant year.
   Since July 2000, the DWD on behalf of the ICCSV has conducted follow-up of all
   subrecipient monitoring findings and ensured that appropriate corrective actions for
                                                     ICCSV Audit Official Response Page 18


   findings were taken as was noted in the Summary of Tentative OIG Findings
   presented at the November 18,2002 exit conference.
   The DWD on behalf of the ICCSV has incorporated monitoring guides and review
   worksheets for its AmeriCorps subrecipients that corrects the monitoring deficiencies
   noted.
   The ICCSV uses the DWD's procedures to ensure that its subrecipients submit audit
   reports including A- 133 reports as applicable and the DWD reviews and follows up
   on all subrecipient audit reports received.
   Since June 2001, the ICCSV has been using match checking procedures to verify
   match reported by subrecipients against established standards with each payment
   request (See Attachment C).
   The CCI provided to the ICCSV on November 7,2002 its reconciliation for the 2000-
   01 AmeriCorps grant year and they are working with consultants they have hired to
   provide the remaining reconciliations for PY's 1997-98 through 1999100.
   There are no questioned costs for Grant 94ASCIN015 at the ICCSV level as the
   overall statutory matching requirements were met for this award.
   The VCS provided to the ICCSV its cash match accounting detail for PY's 1998-
   2000 member support costs on October 2 1,2002. The ICCSV is in the opinion that
   this resolves the questioned costs of $20,695 for the ICCSV not attaining the required
   statutory minimum of 15% match for member support costs under the America Reads
   Grant 98ARCIN011.

ICCSV Action:
   The DWD on behalf of the ICCSV continues to conduct comprehensive annual
   financial and programmatic monitoring and resolution for AmeriCorps subrecipients
   as it has done since the 1999100 grant year.
   The ICCSV continues to use the DWD's procedures to ensure that its subrecipients
   submit audit reports including A-133 reports as applicable.
   The ICCSV requires that its prospective or renewal AmeriCorps subrecipients submit
   their most recent audit reports including an A-133 report as applicable with their new
   or renewal applications.
   The ICCSV is currently in the process of documenting monitoring procedures for
   Learn and Serve subrecipients for use in the future.
   The ICCSV implemented matching standards (Attachment C) in June 2001 for its
   AmeriCorps grantees that are applied each time a subrecipient submits a payment
   request. Payments are withheld if subrecipients are not at match standards until a
   satisfactory explanation is provided including an indication of when the subrecipient
   will be on track toward meeting budgeted match levels.
   The DWD on behalf of the ICCSV is currently in the process of evaluating the cost-
   benefit relationship of implementing the A-133 expenses to the ICCSV payment
   records reconciliation as recommended by the auditors.
   The ICCSV has been working with the CCI to obtain the remaining reconciliations of
   their accounting records to FSRs for PY's 1997-2000 since the initial audit site visit
   exit conference held with the auditors on July 26,2002.
                                                           ICCSV Audit Official Response Page 19


                     Draft OIG Internal Control Finding 2
  Financial Grant Management Responsibilities Were Not Adequately Segregated

Draft OIG Findings:                         Resolution is proposed because:
   ICCSV did not adequately segregate           Since Julv 2000. the ICCSV has used the DWD's
   financial grant management duties            financial i n d administrative processes which are
   until its partnership with DWD               adequately segregated.
   began in July 2000                           ICCSV's    May 2002 state compliance audit by the
                                                Indiana State Board of Accounts had no findings
   A March 999 Indiana State Board              ICCSV currently has no smaller Learn and Serve
   of Accounts audit found that the             subrecipients and is developing monitoring
   grant manager was responsible for            procedures for future Learn and Serve funding.
   writing checks, signing checks,              The DWD on behalf of the ICCSV ensures during
   posting transactions, and preparing          monitoring    follow-up that corrective actions are
   reconciliations                              taken for  subrecipient findings.
   Smaller subrecipients of the ICCSV such as NZL and Sullivan County Soil had
   similar segregation of duties issues
   ICCSV7sown monitoring report of one of its subrecipients, Peace Learning Center,
                               -   -



   found that it did not have adequate segregation of accounting responsibilities, that
   bank reconciliations were not performed on a timely basis, and that cash receipts were
   not deposited on the same day received

Statement of Facts:
   Effective July 2000, the ICCSV through its partnership with the DWD ceased to have
   segregation of duties issues.
   The May 2002 Indiana State Board of Accounts state compliance audit of the ICCSV
   noted no findings for the audit period from March 1, 1999 through February 28,2002.
   The DWD on behalf of the ICCSV ensured during monitoring follow-up that
   appropriate corrective actions were taken to resolve the Peace Learning Center
   findings as had been noted by the auditors in the Summary of Tentative OIG audit
   findings presented at the November 18,2002 exit conference.

ICCSV Action:
   Effective July 2000, the ICCSV began using the DWD's financial and administrative
   processes that resolved its segregation of duties issues
   The ICCSV is currently in the process of documenting monitoring procedures for
   Learn and Serve subrecipients for use in the future.
   The DWD on behalf of the ICCSV ensures during monitoring follow-up that
   corrective actions are taken to resolve any subrecipient findings.
   The DWD on behalf of the ICCSV instituted monitoring of AmeriCorps subrecipients
   starting with the 1999100 grant year and one of its current monitoring procedures is to
   verify that adequate segregation of duties exists with subrecipients or that proper
   mitigating controls are in place for adequate segregation of duties.
                                                       ICCSV Audit Official Response Page 20


                     Draft OIG Internal Control Finding 3
    Past Performance Was Not Formally Considered During Funding Decisions

Draft OIG Findings:                         Resolution is proposed because:
   ICCSV has not formally reviewed             ICCSV is using a revised renewal review sheet
   subrecipient financial systems, prior       that incorporates evaluating past performance in
   A- 133 reports, or prior site               making funding decisions.
   monitoring results during the               ICCSV uses prior monitoring and A- 133 reports in
                                               evaluating past subrecipient performance prior to
   subrecipient renewal process                making funding decisions.
                                               Pre-award surveys are conducted by the DWD on
Statement of Facts:                            behalf of ICCSV of any possible new subrecipient
   The ICCSV concurs that it needed to         when a current audit is not provided, when a
   formally document subrecipient past         current audit is provided and there are significant
                                               internal control, compliance, and financial
   performance so that this information        findings, or if an applicant has never managed
   could be used consistently in               federal funds. Pre-award surveys are conducted
   evaluating subrecipient renewal             prior to officially awarding a subgrant to a new
   applications                                subrecipient.
   The ICCSV has used A-133 audit         I
   and monitoring report issues in considering subrecipients' past performance before
   making funding decisions since the PY 2001102 ArneriCorps grant award process.
   ICCSV adapted a formal process for this review beginning with the 200212003
   AmeriCorps grant award process.
   Since July 2000, the DWD on behalf of the ICCSV has conducted three pre-award
   surveys on the financial grant management capacity of prospective AmeriCorps
   subrecipients prior to awarding a grant to a subrecipient.

ICCSV Action:
   The ICCSV has revised their renewal review sheet (Attachment F) to incorporate
   evaluating past performance of its subrecipients during the renewal process. This
   form was used during the 200212003 process. Attachment E was used during the
   200312004 review process.
   Pre-award surveys are conducted by the DWD on behalf of ICCSV of any possible
   new subrecipient when a current audit is not provided, when a current audit is
   provided and there are significant internal control, compliance, and financial findings,
   or if an applicant has never managed federal funds. Pre-award surveys are conducted
   prior to officially awarding a subgrant to a new subrecipient.
                                                     ICCSV Audit Official Response Page 21


   Draft OIG Internal Control Finding 4
                 Review of Member Activities Was Not Documented

Draft OIG Findings:
   Prior to July 2000, .the ICCSV did        The DWD's current monitoring procedures
   not document its review of                performed on behalf of the ICCSV includes
   member activities to ensure that          verifying the appropriateness of member activities.
   members were complying with               The ICCSV ensures that any findings and
                                             observations discovered during monitoring visits
   provisions related to prohibited          are subsequently resolved through the follow-up
   activities                                procedures employed by the DWD.

Statement of Facts:
   The ICCSV concurs with this finding and has implemented corrective action through
   its current monitoring procedures. The ICCSV conducts annual monitoring of its
   AmeriCorps subrecipients beginning with the 1999100 grant year and one of the
   verifications perfonned is of the appropriateness of member activities.
   The ICCSV has ensured that corrective actions have been taken by its subrecipients
   for any monitoring findings and observations noted for grant years 1999100 through
   2001102. The auditors noted in the Tentative Summary of Findings presented at the
   November 18,2002 exit conference that the DWD had ensured that appropriate
   corrective actions were taken to resolve deficiencies discovered with 1999100 through
   200010 1 monitoring.


ICCSV Action:
   The ICCSV through the partnership with the DWD has instituted annual monitoring
   of its AmeriCorps subrecipients starting with the 1999100 grant year.
   The ICCSV through the partnership with the DWD ensures that any findings and
   observations discovered during monitoring visits are subsequently resolved through
   the follow-up procedures that are employed by the DWD Oversight Division
                                                        ICCSV Audit Official Response Page 22


                       Draft OIG Internal Control Finding 5
             Procedures to Verify Member Hours Reported Did Not Exist

m a l t ulti F'mdmgs:
   Prior to July 2000, the ICCSV did
   not have procedures to ensure that
                                              .
                                       I Resolution is .DroDosed because:
                                                             -
                                       I The DWD'S current monitoring procedures
                                            performed on behalf of the ICCSV includes
                                                                                                I
   member hours reported to the              verifying the member hours reported to the
   National Service Trust were              National  Service Trust with member tirnesheets.
                                             The ICCSV ensures that any findings and
   accurate and proper                       observations discovered during monitoring visits
   ICCSV did not review service hours        are subsequently resolved through the follow-up
   reported by subrecipients to ensure I     procedures employed by the DWD.
   that they were suppm-ted by member I
   timesheets

Statement of Facts:
   The ICCSV concurs with this finding and implemented corrective action through its
   current monitoring procedures. ICCSV conducts annual monitoring of its
   AmeriCorps subrecipients beginning with the 1999100 grant year and one of the
   verifications performed is of the member hours reported to the National Service Trust
   with member timesheets.
   The ICCSV has ensured that corrective actions have been taken by its subrecipients
   for any monitoring findings and observations noted for grant years 1999100 through
   2001102. The auditors noted in the Tentative Summary of Findings presented at the
   November 18,2002 exit conference that the DWD had ensured that appropriate
   corrective actions were taken to resolve deficiencies discovered with 1999100 through
   2000101 monitoring.

ICCSV Action:
   The ICCSV through the partnership with the DWD has instituted annual monitoring
   of its ArneriCorps subrecipients starting with the 1999100 grant year.
   The ICCSV through the partnership with the DWD ensures that any findings and
   observations discovered during monitoring visits are subsequently resolved through
   the follow-up procedures that are employed by the DWD Oversight Division
                                                      ICCSV Audit Official Response Page 23


      Response to Draft Findings from the Corporation for National and
              Community Service Office of Inspector General
    Indiana Commission on Community Service and Volunteerism Audit
                                       Conclusion

The Indiana Commission on Community Service and Volunteerism is diligently working
to resolve all draft findings outlined in the Corporation for National and Community
Service, Office of Inspector General's Audit Report. The ICCSV will continue its efforts
in working to resolve all findings in partnership with the Corporation for National and
Community Service. As the Report notes, the ICCSV has made tremendous strides in
improving its financial and administrative processes since its partnership with the Indiana
Department of Workforce Development began in July 2000.

The ICCSV and its partner agency, the DWD, are conscientious about the oversight and
leadership role provided to all subrecipients of funding through the ICCSV. The annual
monitoring of ArneriCorps subrecipients that began during the 1999100 grant year is an
example of the effort that is being made to ensure that Indiana's programs remain
accountable to both federal and state requirements.

The ICCSV has made every effort to address the issues identified and will be taking
additional actions as necessary to address any remaining findings. The consideration of
this response and the final resolution of the audit by the CNCS is appreciated.
                                             ICCSV Audit Official Response Page 24


     Response to Draft Findings from the Corporation for National and
             Community Service Office of Inspector General
   Indiana Commission on Community Service and Volunteerism Audit


                                Appendix

Attachment A:    January 27,2003 Letter to CNCS requesting guidance for the
                 close out of Grant 95LCSIN015

Attachment B:    Policy on Review of Financial Status Reports

Attachment C:    Internal Policy for ICCSV's Matching Standards for payment
                 approval

Attachment D:    ICCSV Progress Report Review Form

Attachment E:    200312004 Staff Review Form completed for all potential
                 applicants that have received funding through the ICCSV in
                 the past.

Attachment F:    200212003 Renewal Review Form
                                                                                                                                       ATTACHMENT A

                                                                                            Frank O'Bannon, G o m r                        Judy O'Bannon, Honoraty Chair
                                                                                            Lynn Coleman, Chair                            Joseph L. Smith, h & ' w &rector

                                                                                            Phone: 3 I 7.233.4.273                         Fax: 3 17.233.5660
                                                                                            Toll Free: 888.335.9490                        Web Site: ~ww.IN.govliccsv

Indiana Commission on Community Service andvolunteerism                                     a West Washington Street, Room Ee2o                r   Indianapolis, Indiana 462W

        January 27,2003

        Mr. Rey Tejada, Sr. Grants Officer/Closeout
        Office of Grants Management, Room 97 15-A
        Corporation for National Service
        1201 New York Avenue, NW
        Washington, DC 20525

        Dear Rey:

        We submitted a tentative closeout for grant number 95LCSIN005 on December 28,2001
        as originally requested by CNS on August 3 1,2001. The total awarded for this grant was
        $468,970 and the grant period was from October 1, 1995 through June 30, 1999.

        There were 109 subgrants awarded by ICCSV under this grant. As of December 28,
        2001, we had received closeouts for only 19 of these subgrants. As of the date of this
        letter, we have received 64 subgrantee closeouts and have final FSRs for 36 of the 45
        subgrants where we have not received a closeout. We have been diligently working to
        obtain the needed subgrantee closeouts, but it is unlikely that we will be able to receive
        any more because of these subgrants having ended four, five and even six years ago.

        A status chart for this grant showing where we were at December 28, 2001 versus where
        we are now is attached. We are presently at a standstill with being able to close out this
        grant with CNS. It is for this reason, I request guidance from you on how you would like
        for us to proceed with closing out grant number 95LCSIN005 with CNS.

        I appreciate your consideration of this request and look forward to your response. If you
        have any questions, please call Amber Roos, Deputy Director, at (3 17) 233-0900.

        Sincerely,



        Joseph L. Smith, Sr
        Executive Director

        cc:         Amber Roos, ICCSV
                    Clay Jackson, DWD

        Enclosure


                                                                         .,
       Tne Indiana Commission on Cot~nunitySen;ice and Volunteerism challenm the m 1 e of Indma to shethen their m~nwiitiest h m e h mice and volunteerism. We idenhfv
                                                                               A   .


           and mobilize mourn,         anathic of sen+ and develop in communities the capacityto solve      and impwe the qualitykife for all i n ~ u a land
                                                                                                                                                          s famih.
                                                                              ATTACHMENT B
       Indiana Commission on Community Service and Volunteerism
               Policy on Review of Financial Status Reports
The Indiana Commission on Community Service and Volunteerism (ICCSV) delegates the
responsibility for the review of the grantee's Financial Status Reports (FSRs) to the Department
of Workforce Development (DWD).

The Deputy Director in the ICCSV is responsible for ensuring that all reports are submitted
within the specified timeframe and notifying the appropriate personnel in the DWD that the
reports have been submitted and are ready for review. The Supervisor of Grant Accounting in the
Finance Division of the DWD is responsible for the review of the Financial Status Reports and
final submission of the aggregate FSR in the Web Based Reporting System (WBRS) for the
ArneriCorps State Competitive and the AmeriCorps State Formula grant awards. These reports
are submitted twice a year as designated by the Corporation for National and Community Service
(CNCS).

The review of the FSRs includes the following steps:

    The Deputy Director verifies that each grantee submitted the requested FSR within the
    required timeframe, typically, 15 days prior to the deadline set by the CNCS. Follow up is
    completed by the Deputy Director if the report is not received in a timely manner.
    The Supervisor of Grant Accounting compares the final totals (both grantee share and the
    Corporation share) on the FSR submitted by each grantee to the information provided in the
    most recent Periodic Expense Report
    The grantee match as reported in the Periodic Expense Report is also reviewed to ensure that
    the grantee is meeting the budgeted level for each category. If the grantee is not on track
    toward meeting the budgeted level, feedback is provided to the grantee and it addressed prior
    to future disbursements being made to the grantee.
    The Supervisor of Grant Accounting after reviewing each FSR submits the aggregate FSR in
    the WBRS.
    The Supervisor of Grant Accounting notifies the Deputy Director that the report has been
    completed in the WBRS.
    The Deputy Director prepares the hard copy for final submission to the CNCS Grants Office
    by obtaining the Executive Director's signature and mailing the hard copy to the CNCS
    Grants Office.

This process takes place over a period of approximately 7-10 days, ensuring the report is
submitted in advance of the deadline set by the CNCS. The deadline is typically 30 days
following the end of the period for which the report is required. The ICCSV requires that the
FSRs for the grantees be submitted on or before the lothcalendar day following the end of each
quarter.




Indiana Commission on Community Service and Volunteerism
Policy on Review of Financial Status Reports
November 2001 - Updated October 2002
                                                                                           ATTACHMENT C

                    Indiana Commission on Community Service and Volunteerism
                    Policy on Tracking Match Level of AmeriCorps State Grantees
                                  Through Periodic Expense Report

The Indiana Commission on Community Service and Volunteerism (ICCSV) has established a process
with the Contracts and Grants division of the Department of Workforce Development (DWD) to ensure
that AmeriCorps State grantees meet the required match levels by the end of the grant year.

When an AmeriCorps State grantee submits a request for funds, the ICCSV Deputy Director reviews the
request and the most recently submitted Periodic Expense Report to determine the level of match being
reported by the grantee. A determination is then made based on the level of match reported as to
whether or not the request for funds will be granted or if additional information will be requested.

If the level of match does not reach the standards set by the ICCSV and DWD internally to monitor the
match activity, an electronic message is sent to the Program Director of the grantee and they are notified
that the match is not being adequately met. The Program Director is then given an opportunity to
respond to the Deputy Director to provide explanation for not reporting match on the PER at the
required level. If the explanation is determined to be satisfactory, based on such criteria as the grantee is
not in receipt of match fiom subgrantees, the general ledger does not reflect match that has been
received and therefore cannot be reported to the PER, etc., then the Deputy Director will approve the
payment, attaching the explanation for review by the DWD Grants and Contracts Grant Specialists.

The Grant Specialist then make their review of the request for payment, noting the appropriate account,
year, and purchase order for the funds to be drawn fiom, and again verifying that match is adequately
being met based on the internal standards and reviewing the explanation if it is not being met. The
Grant Specialist then sends it to a DWD authorized signatory for approval of the payment to be made.
The DWD authorized signatory then reviews the PER and determines if the explanation provided in
instances when match is not being met is satisfactory, if so, the payment request is approved and
processed. If not, the DWD authorized signatory contacts the Deputy Director to further investigate the
issue. The Deputy Director will follow up with the Program Director to request additional
documentation and discuss the request for payment with the DWD authorized signatory and the
Controller of DWD, when necessary, to make a final decision regarding the approval of funds for the
grantee.

In some instances, pays are not made immediately and delayed if the grantee is not at a standard and the
explanation provided is unsatisfactory. Pay request will be reconsidered upon the grantee reporting
additional match to bring them up to standard or upon receipt of a satisfactory explanation.

It is required that all grantees will have reached 100% of the required match level by the end of the grant
period. Through the tracking process, the level of match reported is monitored closely to prevent
grantees from receiving funds for program expenses for which they are not incurring a cost.




Indiana Commission on Community Service and Volunteerism
Policy on Match for AC State
Updated June 2001
                                                                  ATTACHMENT D



                  PROGRESS REPORT REVIEW SHEET


2. Date of Progress Report:

3. Report submitted on time:               Yes         No, date submitted:

4. Top Section of Report, Questions #1-9 answered accurately        Yes          No
            Comments/Concerns:

5. Numbers of Members information provided in question #10          Yes          No
           Comments/Concerns:

6. Member Service Hours provided in question #11                    Yes          No
           Comments/Concerns:

7. Volunteer Generation information provided in question #12(A)     Yes          No
            Comments/Concerns:

8. Examples of service activities for non-AmeriCorps member

        Volunteers provided in question #12(B)                       Yes         No
              Comments/Concerns:

9. PROGRESS TOWARDS OBJECTIVES (question #13)

   Getting- Things Done Objectives

   A. Objectives on track to meet or exceed this objective?          Yes         No
           Comments/Concerns:

   B.    Appropriate service activities?                             Yes         No
             Comments/Concerns:

   C. Accomplishment data is complete?                               Yes         No
          Comments/Concerns:

   D. Outcomes information is complete?                              Yes         No
           Comments/Concerns:

   E. Description of next steps to meet objective is completed?      Yes         No
           Comments/Concerns:


   Member Development Objectives
                                                                  ATTACHMENT D


   A. Objectives on track to meet or exceed this objective?        Yes           No
           Comments/Concerns:

   B. Appropriate service activities?                              Yes           No
             Comments/Concerns:

   C. Accomplishment data is complete?                             Yes           No
          Comments/Concerns:

   D. Outcomes information is complete?                            Yes           No
             Comments/Concerns:

   E. Description of next steps to meet objective is completed?    Yes           No
             Comments/Concerns:

   Community Strengthening Obiectives

   A. Objectives on track to meet or exceed this objective?        Yes           No
             Comments/Concerns:

   B. Appropriate service activities?                              Yes           No
             Comments/Concerns:

   C. Accomplishment data is complete?                             Yes           No
             Comments/Concerns:

   D. Outcomes information is complete?                            Yes           No
             Comments/Concerns:

   E. Description of next steps to meet objective is completed?    Yes           No
             Comments/Concerns:

10. Other Accomplishments This Reporting Period completed?         Yes           No
             Comments/Concerns:

11. Unique Success or "Great Stories" completed?                   Yes           No
            Comments/Concerns:

12. Challenges encountered this quarter and action taken
    to resolve them was completed?                                 Yes           No
               Comments/Concerns:

13. Significant program changes this reporting period
    were completed (if needed)?                                    Yes           No
              Comments/Concerns:
                                                                                             ATTACHMENT E




Timely Reporting during 2002/2003 Grant Period:
Refer to Reporting Chart for 2002/2003 for ALL Programs




Progress Report - Status of Meeting Objectives
    The program demonstrates adequate progress toward meeting its goals under each objective and has
    established strong systems for tracking this success - if not, the program provides explanation such as
    enrollment pause;
    The program adequately documents its accomplishments and clearly states challenges and issues
    encountered;
    The program is meeting its required match;
    Program is making good progress in selecting and training staff to operate the program and supervise
    ACMs;
    Program is developing good working relationships with service placement sites and preparing them to
    work with ACMs;
    Program is connecting ACMs to national service network through training opportunities and attending
    events;
    The program has demonstrated an ability to recruit and manage volunteers;
    The program is meeting the needs of the community as identified in their proposal.




Indiana Commission on Community Service and Volunteerism
2003-2004 AmeriCorps Grant Review Process
Evaluation of Past AmeriCorps Grantees
                                                                                            ATTACHMENT E
Sustainability Plan - note whether or not the plan has changed since last year's submission. Has
the program identified the need for improvements and submitted a strong strategyfor
sustainability?
o   key stakeholders in the community (Advisory Council) willing and able to champion the AmeriCorps
    program in that community
o   a mission statement on sustainability
R   goals, objectives, and strategies for making their AmeriCorps program sustainable
o   ability to leverage resources within (and outside) the community
o   ability to organize for effective public relations
o   the program has become an integral part of the host organization (not just viewed as a funding stream for
    the agency)




Challenges Noted in Past Monitoring Visits (both 2001/2002 and 2002/2003):
  Did the compliance findings include member file documentation
o Were there recurring findings from past visits?
o Did the program act appropriately to correct the problems?
o Was it resolved in a timely manner?
o Is the program following all programmatic and financial guidelines and policies?




Overall Appraisal (Provide comments with respect to general performance as a program in the
past year including improvements that have been clear, compliance concerns or issues)




Indiana Commission on Community Service and Volunteerism
2003-2004 AmeriCorps Grant Review Process
Evaluation of Past AmeriCorps Grantees
                                                                                                                                                   ATTACHMENT F




Each renewal application proposal should contain the following:

          4    Title Page - SF-424 Facesheet
          4    Sustainability Plan and score sheet from Miami University of Ohio
          4    Next Year's Plan: including program design, organizational capacity, justification for expansions, strategy for program monitoring and
               prohibited activities
          +    Executive Summary and Summary of Program Impact
          +    Objective Forms (if objectives will change)
          +    Budget Form and Narrative
          4    Certification and Assurances Form
          4    Copy of A-133 or other independent audit report
          +    Budget Analysis Worksheet

In addition, the applicant's submission of the following reports for the 2001 - 2002 program year will be tracked by ICCSV staff (total of five
points based on reporting (each item receives score of % point):




                                                              for December will have to be completed to do the FSR)
                                   February 15'"              Progress Report for Period from Start Date (August IS'or September IS')through
                                                              December 31St- Complete in WBRS using APR
                                   February 10'"              Periodic Expense Report for Period Ending January 30'"
                                   March 10'"                 Periodic Expense Report for Period Ending February 28'"
                                   April 10'"                                                                    -
                                                              Financial Status Report for Period of January 1 through March 31S'(PER for
                                                          I   March must be completed to do FSR)                                               I
Total Points:               14


Indiana Commission on Community Service and Volunteerism
2002-2003AmeriCorps Grant Review Process for Renewal Applications
Renewal Review Form
Updated January 2002
                                                                                                                            ATTACHMENT F
The review form is based on each category in the renewal application. Please assign a score between one andfive for each bullet point (I =
poor, 5 = excellent):

Next Year's Plan: 2 - 3 narrative pages covering changes to previous year's program activities and program objectives.
Program Design: The grantee should clearly describe additions and changes to be made that build upon the strengths and challenges
encountered in the previous year (each of the issues below is worth 4 points):

o   Strategies for recruiting and training ACMs and volunteers;
    Plans and improvements in systems to address program needs;
    Any new program partners and new roles and involvement for the community in planning and implementation;
    Specific actions to be taken to ensure ACMs do not engage in prohibited activities;
    Plans for linking to other existing efforts to solve community problems including other local Corporation-funded programs - support of small
    community-based and faith based organizations; reference to efforts to address issues of homeland security

Total Score:                 I20

Organizational Capacity: The program should clearly describe the following (total of five points for each element):

  Plans to continue operations and any changes in structure or staffing that will be made
o Plans for building local support and sustaining the program;
o Plans for meeting the match requirements.

Total Score:                115

Justification for Expansion: The program should explain any request for an expansion.

Total Score:                I5

Program Monitoring/Compliance: Program should have system for the monitoring of member service hours and activities and ensuring
adequate member eligibility documentation:

Total Score:              15



Indiana Commission on Community Service and Volunteerism
2002-2003AmeriCorps Grant Review Process for Renewal Applications
Renewal Review Form
Updated January 2002
                                                                                                                                  ATTACHMENT F
Objective Forms: Objective Worksheets or Summary Form should be included in application submission:
The objectives should include clearly stated, well thought out objectives in all three categories of Getting Things Done, Strengthening
Communities, and Participant Development. These objectives should describe the following (total score of five points for each element):

o the objectives to be accomplished;
o the expected results;
o methods for measuring impactlquality;
o standards by which success will be measured;
o number of individuals that will benefit from the service activity;
o howlif the objectives vary from the previous year ( applicant not required to submit objectives if they are not changing from the prior year).

Total Score:                I30

Budget Form and Budget Narrative: The Budget Analysis Worksheet will be completed to assess this portion o f the application.

Automated Progress Report: The applicant is required to submit two progress reports during the period of the grant review
process, the following elements will be considered in the review of these reports and noted in the application review process
(three total points for each element):

o The program is making adequate progress toward meeting its goals under each objective and has established strong systems for tracking this
     success;
o    The program adequately documents its accomplishments and clearly states challenges and issues encountered;
o    The program is meeting its required match;
o    The program is at 75% of full enrollment for the program year within the first four months of the program's operations;
o    Program is making good progress in selecting and training staff to operate the program and supervise ACMs;
o    Program is developing good working relationships with service placement sites and preparing them to work with ACMs;
o    Program is connecting ACMs to national service network through training opportunities and attending events.

Total Score:                I2 1




Indiana Commission on Community Service and Volunteerism
2002-2003AmeriCorps Grant Review Process for Renewal Applications
Renewal Review Form
Updated January 2002
                                                                                                                     ATTACHMENT F

Overall Appraisal (Provide comments with respect to general performance as a program in the past year including improvements that
have been clear, compliance concerns or issues)




Sustainability Plan - note whether or not recommended changes and additions to the sustainability plan were made as guided by Miami
University of Ohio faculty
+ key stakeholders in the community (Advisory Council) willing and able to champion the ArneriCorps program in that community
+ a mission statement on sustainability
+ goals, objectives, and strategies for making their AmeriCorps program sustainable
+ ability to leverage resources within (and outside) the community
+ ability to organize for effective public relations




Recommendation for Renewal o f Funding

         Fund at requested level

         Fund with reduced funding level or reduced FTEs

         Fund with provision of performance improving during 2001 - 2002 program year
Indiana Commission on Community Service and Volunteerism
2002-2003AmeriCotp Grant Review Process for Renewal Applications
Renewal Review Form
Updated January 2002
                            APPENDIX B




CORPORATION'S RESPONSE TO
   DRAFT AUDIT REPORT
                                     co$orf!d7kAL &
                                     COMMUNITY
                                     SERVICE-


To:           Russell George, Inspector General

Through:


                                                                            /
                                                                                L /

                                                                                -   1
                                                                                        //,

                                                                                        i-    --
                                                                                                   f\
                                                                        i
Date:         January 30,2003

Subj:         Response to OIG Draft Audit Report 03-03: Incurred Cost Audit of Grants
              Awarded to the Indiana Commission for Community Service and Volunteerism


We have reviewed the draft audit report of the grants to the Indiana Commission for Community
Service and Volunteerism. Due to the limited timeframe for response, we have not analyzed
documentation provided by the Indiana Commission supporting the questioned costs nor
reviewed the audit work papers. We will respond to all findings and recommendations when the
audit is issued and we have reviewed the findings in detail. The Indiana Commission has also
provided an extensive response and is workingons corrective action as necessary.

We do want to note that the auditors questioned costs for AmeriCorps member living allowances
if the member file did not show that the individual had a high school diploma or agreed to get
one before using the education award. Members are eligible to serve and receive a living
allowance if they do not have a high school diploma. They must just earn a diploma or GED
before they can access the education award. Therefore, we will allow any costs that were
questioned based solely on the lack of evidence of a diploma.

Our preliminary review indicates that a substantial amount of the unsupported costs ($534,969)
were unreconciled differences between financial status reports and the general ledgers at several
of the subgrantees. The commission recognizes the need for a reconciliation and is working with
the subgrantees to reconcile the two systems as they close out the grants with the Corporation.
When that reconciliation process is completed, the costs will be resolved.

Finally, as noted in the audit, the Commission made extensive changes to their monitoring
processes in 2000 when they established a partnership with the Indiana Department of
Workforce Development which is now responsible for the fiscal management and oversight of
federal funds. Most of the costs questioned in the audit were related to costs claimed in years
before Workforce Development became responsible for fiscal management and began working
with the Commission to strengthen monitoring and fiscal oversight of subgrantees.




                            1201 New York Avenue, NW     *
                                                        Washington, DC 20525
                                  202-606-5000    *
                                                  www.nationalservice.org
                            Senior Corps   * AmeriCorps * Learn and Serve America                  The President's Call lo Serwce
